<html>
<title> - STATE, FOREIGN OPERATIONS, AND RELATED PROGRAMS APPROPRIATIONS FOR FISCAL YEAR 2019</title>
<body><pre>[Senate Hearing 115-]
[From the U.S. Government Publishing Office]




 
  STATE, FOREIGN OPERATIONS, AND RELATED PROGRAMS APPROPRIATIONS FOR 
                            FISCAL YEAR 2019

                              ----------                              


                        WEDNESDAY, JUNE 27, 2018

                                       U.S. Senate,
           Subcommittee of the Committee On Appropriations,
                                                    Washington, DC.

    The subcommittee met at 2:34 p.m., in room SD-192, Dirksen 
Senate Office Building, Hon. Lindsey Graham (Chairman) 
presiding.
    Present: Senators Graham, Lankford, Daines, Hyde-Smith, 
Leahy, Durbin, Shaheen, Coons, Murphy, and Van Hollen.

                          DEPARTMENT OF STATE

STATEMENT OF HON. MIKE POMPEO, SECRETARY

              OPENING STATEMENT OF SENATOR LINDSEY GRAHAM

    Senator Graham. The subcommittee will come to order. We are 
pleased to have the Secretary of State, Mr. Pompeo, with us.
    You've got to leave at 4:30. I know you've got a hard stop. 
We're going to accommodate that. We're going to run the train 
on time and have 6-minute rounds, and I'll give a very short 
opening statement.
    Number one, I'm pleased that you were chosen by the 
President, and I think you're the right person at the right 
time. You understand the world for what it is, a complicated 
place, and being a former CIA director, you understand the 
threats. You have the President's confidence. You certainly 
have my confidence, and I appreciate that you and your family 
are willing to do this. We will not pay you by the mile, 
because I don't think we could afford it.
    So let's talk a little bit about this account. Then we'll 
get into the questioning. Senator Leahy and I have been doing 
this for quite a while, and foreign assistance is sometimes 
difficult to sell domestically, but if you don't want to be in 
endless wars, if you want to have more tools than just dropping 
bombs, it's essential we have a robust foreign assistance 
account. It's essential that our diplomats under your command 
serve safely.
    And to the public: I often talk about the military, because 
they deserve it. I don't talk enough about the State Department 
and USAID members, who serve in very dangerous locations 
without the security footprint sometimes that we would like. 
They take risks on behalf of this Nation every day, and they're 
very much heroes. I think you will be a good voice for their 
needs.
    Now, as to the President's budget request, it is 20-
something percent below what we wind up doing, and, because we 
have time constraints, these are the threats we face, non-state 
actor challenges and state actor challenges really since 2011, 
when we implemented sequestration. Everything on that chart is 
in your purview, North Korea being one of the easier challenges 
you face. So North Korea, Iran, and ISIS is a pretty good 
challenge. Then you just keep going to Syria, Yemen, and 
Russia--on and on and on. And here's what we're trying to 
prevent: proliferation of weapons of mass destruction. You're 
an essential part of all this.
    I just don't see how it makes sense to cut the budget over 
20 percent, given your portfolio, and I'll ask you one quick 
question in a minute: If we give you more money, do you think 
you can wisely spend it? And you will say yes, and if you 
don't, we're going to have a problem.
    So having said that, I want to turn it over to Senator 
Leahy.
    I really appreciate you coming today, Mike, because you're 
in demand. But this subcommittee needs to tell you what's on 
our mind, and you need to tell us what we can do to help you 
better do your job.
    Senator Leahy.

                 STATEMENT OF SENATOR PATRICK J. LEAHY

    Senator Leahy. Thank you, Mr. Chairman.
    And, Secretary Pompeo, thank you for being here. Welcome. 
You are no stranger to the Congress, and I am sure you know 
this subcommittee has had long bipartisan support for the State 
Department, regardless of whether Republicans or Democrats have 
been in charge of the Senate, or whether it has been a 
Republican administration or a Democrat administration. Senator 
Graham and I have swapped seats on this subcommittee over the 
years, and we've always worked together.
    Last week, the committee unanimously reported the fiscal 
year 2019 State, Foreign Operations bill. We rejected the cuts 
proposed by OMB. Our goal was to enable the United States to 
remain the global leader that so many Americans and people 
around the world want us to be. That means we have to lead by 
example. We have to stand up for our values and our principles. 
We have to pay our fair share to support international 
organizations and alliances that protect our interests, and 
support policies and programs that enhance our reputation and 
our credibility.
    I am going to put my whole statement in the record, but 
I'll close with this. I think we have two choices. One is to 
cut the budget for the State Department and USAID by 25 
percent, slash our contributions to the United Nations, 
withdraw from international agreements and treaties, embrace 
corrupt despots who trample the rights of citizens, close our 
borders to people fleeing violence and war, bully our 
neighbors, and ignore the fact that our strongest competitors 
are methodically expanding their influence as we pull back.
    The other approach is to be a leader, one that is still the 
world's only superpower, thanks to the sacrifice of generations 
of Americans who came before us. That is the approach this 
subcommittee has taken, and the lion's share of the credit goes 
to Chairman Graham, because he committed at the beginning, and 
we did it together. We agreed to make the bill bipartisan, and 
we tried to have an unanimous vote, and we did.
    [The statement follows:]
             Prepared Statement of Senator Patrick J. Leahy
    We live in a rapidly changing, dangerous world. I doubt there are 
any among us who would have predicted, when the Berlin Wall came down 
30 years ago, that the world would look the way it does today:

  --Two seemingly unending American wars in Afghanistan and Iraq;
  --Religious and ethnic violent extremism that has grown steadily 
        worse since
        9/11;
  --Global pandemics that have infected and caused the deaths of tens 
        of millions of people;
  --Rising temperatures and water scarcity threatening whole regions;
  --The proliferation of ever more powerful nuclear weapons;
  --Increasing authoritarianism and the dismantling of democratic 
        institutions; and
  --Humanitarian crises and people fleeing their homes on a scale not 
        seen since World War II.

    You are here to defend the President's budget, and we understand 
that. So it could be said that we are here to try to save you from your 
own administration, and to protect the funding for diplomacy and 
development. We want the people at the State Department and USAID to 
have the resources they need to do their jobs.
    This budget amounts to a tiny fraction of the Federal budget, and 
it compliments the role of our military by building more stable 
societies to prevent conflict, and by rebuilding after conflicts and 
other disasters when they occur. We want other countries do contribute 
more, but we cannot protect our interests by doing less.
    I expect most of the discussion today will focus on topics in the 
news, like North Korea, Iran, China, Iraq and Syria. There's nothing 
wrong with that. But let's remember that we can have the best trained 
people and the best policies and the best programs, but without the 
funds to implement them there won't be much to show for it.
    Thank you Mr. Chairman.

    Senator Graham. We like ourselves if nobody else does.
    [Laughter.]
    Senator Graham. So the floor is yours, Mr. Secretary.

                 SUMMARY STATEMENT OF HON. MIKE POMPEO

    Secretary Pompeo. Thank you very much, Mr. Chairman, 
Senator Leahy. I appreciate you having me here today. I look 
forward to our conversation.
    Distinguished Members of the subcommittee, I appreciate the 
opportunity to talk today about the President's budget and the 
issues that are on your mind. The list that you show there, 
Senator Graham, is long, and I could probably add a couple of 
others. I'm sure you could add a couple of more as well.
    I want you to know, too, how much I appreciate the fact 
that you all have operated in a bipartisan manner. I've had a 
chance to talk to many of you on the phone. We've had 
productive conversations over a wide range of topics. Know that 
I'm always available to listen and make sure I understand your 
priorities and the way you are thinking about the world. It is 
helpful to me. It's not just something I do as a courtesy, but 
something that I value extraordinarily. You all were very short 
with your opening statements. I will do the same.
    You should see that the overall proposed budget reflects an 
effort to manage dollars wisely. We've already made substantial 
progress in working on next year's budget. I look forward to 
each of us and our teams continuing to work to achieve 
America's foreign policy objectives.
    With that, I have a written statement, and I've submitted 
it. I'm happy to close there and take questions.
    [The statement follows:]
               Prepared Statement of Hon. Michael Pompeo
Chairman Graham, Ranking Member Leahy, and distinguished Members of the 
subcommittee:

    I appreciate the opportunity to discuss the administration's fiscal 
year 2019 budget request for the State Department and USAID, 
recognizing that the Committee has already done great work to advance 
an fiscal year 2019 appropriations bill for our organizations. I look 
forward to continuing a dialogue with the Committee as the 
appropriations process moves forward. And I call your attention to the 
administration's communications on the bill and the need to exercise 
fiscal responsibility, as is called for in the President's fiscal year 
2019 budget.
    Last December the Trump administration released the National 
Security Strategy. The four pillars of the strategy are protecting the 
American people, the homeland, and our way of life; promoting American 
prosperity; preserving peace through strength; and advancing American 
influence.
    In order to achieve these national security objectives, the 
administration has submitted our fiscal year 2019 budget request of 
$39.3 billion for the State Department and USAID. The proposed request 
reflects our obligation to use taxpayer dollars wisely and effectively.
    Our request also makes clear the United States' financial 
commitment to the pursuit of shared goals must be met proportionally by 
the international community. It is time for other nations--especially 
those with high GDP--to assume greater responsibilities and devote 
greater resources toward common objectives, whether it's crushing 
terrorists, stopping Iran's malign behavior, strengthening the NATO 
alliance, eradicating infectious diseases, and so much more. We expect 
greater burden sharing for our allies and partners.
    The President is committed to diplomacy as the primary means of 
achieving the United States' foreign policy objectives, which are 
further detailed in our State/USAID Joint Strategic Plan. We will use 
every dollar to deliver on our duty to serve the American people and 
the enduring foreign policy victories that are within sight.
    On North Korea, the maximum pressure campaign of diplomatic 
pressure and economic sanctions undertaken at the beginning of 2017 has 
produced results in the form of the historic Summit which took place on 
June 12. Our goals for the Summit were to establish a relationship 
between President Trump and Chairman Kim Jong Un and obtain a public 
commitment from North Korea to denuclearization. Those objectives were 
achieved. We expect to have follow-up meetings with North Korea soon to 
identify specific ways to achieve the goals outlined in the Joint 
Statement. Sanctions will remain in place until the final, fully-
verified denuclearization of North Korea as agreed to by Chairman Kim 
occurs. We know this will not be an easy or quick process, but we 
believe we can write a new chapter in our relationship with North Korea 
if Kim Jong Un takes the right steps.
    Last month I unveiled a new direction for the President's Iran 
strategy. We will apply financial pressure, coordinate with our DoD 
colleagues on deterrence efforts, support the Iranian people who seek a 
brighter future, and hold out the prospect of a new deal for Iran--if 
it changes its behavior. We seek to work with as many partners, 
friends, and allies as possible to achieve the common objective of 
stopping all of Iran's nuclear and non-nuclear threats.
    We've made outstanding progress against ISIS, but the job isn't 
done yet. The progress against ISIS has been predominantly accomplished 
through military action. But there is a very important role for 
diplomacy and assistance in ensuring the permanent defeat of ISIS. We 
must continue robust stabilization activities with our Coalition 
partners in order to prevent ISIS from resurfacing. We are also 
countering ISIS's attempts to gain safe havens in areas such as 
Afghanistan, the Philippines, and Africa. In addition to providing 
targeted security sector assistance funding, we are working with our 
allies and partners to stop foreign fighter travel, cut off sources of 
revenue, combat ISIS online, share intelligence, and prosecute those 
who come off the battlefield.
    We know Russia poses a challenge to our strategic interests and the 
security of ourselves and our allies. This is evident from the chemical 
weapons attack in the UK, for which we imposed consequences in concert 
with several partners and allies. We've been clear with Russia that it 
must honor its commitments under the Minsk agreements and end its 
occupation of Crimea if peace is to prevail in Ukraine. As a guarantor 
of the Assad regime, Russia has a responsibility to be a constructive 
actor for stability and peace in Syria, which includes stopping the 
regime's use of chemical weapons. We are holding Russia accountable to 
its commitment to the Geneva process.
    China is a rising strategic competitor. We must work constructively 
with a nation of China's importance on issues such as North Korea and 
opioids, but we cannot sacrifice the interests of the American people 
and our economic competitiveness, tolerate aggression in the South 
China Sea and elsewhere, or passively watch as American intellectual 
property is stolen. We are making clear to China that the protection of 
human rights is integral to any country that wishes to be regarded as a 
great nation. Elsewhere in Asia, we are re-affirming and expanding 
partnerships in the Indo-Pacific region with nations that share our 
commitment to security, economic freedom, sovereignty, and liberty.
    Turkey is a key NATO Ally and critical partner in the Coalition to 
Defeat ISIS. It is in our interest to maintain Turkey's Western 
orientation. We have made clear to Turkey the very real and very 
negative consequences of acquiring the Russian S-400 system, including 
its potential impact on Turkey's participation in the F-35 program. I 
appreciate Congress's strong interest in this issue, and I look forward 
to consulting with you as we pursue these issues with the Government of 
Turkey.
    Finally, in our own hemisphere, we are embracing the ``Year of the 
Americas,'' by re-affirming our commitment to longstanding partnerships 
grounded in shared interests and values. On Venezuela, we have imposed 
new economic and diplomatic pressure on the Maduro regime to help steer 
that country back toward democracy, and we are rallying like-minded 
regional partners to do the same.
    Across the world, we have encouraged nations to assume greater 
responsibilities for maintaining their own and our shared security and 
stability. In the face of a resurgent Russia, and in response to our 
urging, many NATO members are newly meeting their commitments to 
funding deterrence and defense initiatives. President Trump's call to 
the leaders of Middle East countries in Riyadh, Saudi Arabia, rallied 
leaders of those nations to more aggressively combat terrorism inside 
their own borders and to counter violent extremism abroad.
    And as part of the new South Asia strategy, we have been clear with 
Pakistan that ensuring reconciliation, peace, and security in 
Afghanistan in large part depends on Pakistan's willingness to crack 
down on terrorist safe havens and instigators of terrorist activity in 
its own country.
    Our highest priority is keeping the American people safe. The 
fiscal year 2019 budget request for $7.3 billion in security assistance 
will help protect Americans at home and overseas. The State Department 
will continue to lead international efforts to denuclearize North 
Korea, and to prevent Iran and other actors from unlawfully acquiring 
weapons of mass destruction and their means of delivery, while 
strengthening the capacity of partner nations to support our efforts as 
well.
    This budget request calls for $5.7 billion in support for Coalition 
efforts to defeat ISIS and counter other transnational terrorist and 
criminal groups that threaten the American homeland. The State 
Department and USAID will sustain programs that address the conditions 
that give rise to these threats, including poor governance, weak 
institutions, lack of economic opportunity, corruption, and persistent 
human rights abuses, and attract additional donor nations' support for 
these efforts.
    Last week in Detroit, I reaffirmed that America's prosperity and 
national security depend on a strong and growing American economy. 
Economic diplomacy will remain an essential mission of the State 
Department. This budget request seeks $2.2 billion for economic growth 
activities like attracting investment in the United States, expanding 
markets for U.S. exports, and ensuring a level playing field 
internationally for American businesses and American workers.
    This budget request includes an important proposal for a new 
standalone development finance institution (DFI) broadly consistent 
with S. 2463, the Better Utilization of Investments Leading to 
Development Act of 2018 (BUILD Act of 2018), being considered by the 
Foreign Relations Committee. Like the BUILD Act, the administration 
proposal consolidates existing functions now spread across various 
agencies to improve efficiencies and better mobilize private sector 
resources.
    If authorized by Congress, a DFI with strong linkages to State and 
USAID will advance U.S. national security and development objectives by 
deploying reformed and modernized development finance tools that 
support, not displace, the private sector. The administration shares 
the goals of the cosponsors to foster sustainable development in 
developing countries and provide strong alternatives to state-directed 
initiatives.
    With the consolidation of these functions in the DFI we would have 
both the opportunity for greater impact and the responsibility to work 
together as a government to advance development outcomes, promote self-
reliance among partner countries, and advance U.S. interests and 
values. To this end, the budget requests $56 million to collaborate and 
coordinate programming with the DFI and leverage its tools.
    Americans benefit from sustained engagement with the rest of the 
world that serves our interests and those of our allies. This budget 
upholds our commitments to our allies, including $3.3 billion in 
support of the recent, 10-year Memorandum of Understanding between the 
United States and Israel regarding U.S. military assistance, a 6.5 
percent increase from last year's request. In recognition of our 
critical strategic partnership and new 5-year Memorandum of 
Understanding with Jordan, the budget also strengthens our high level 
of support by requesting $1.275 billion for Jordan in fiscal year 2019.
    In light of continuing significant humanitarian needs, largely 
driven by ongoing conflicts in Syria, Yemen, and elsewhere, the fiscal 
year 2019 request includes $6.4 billion for humanitarian assistance, an 
increase of $1.1 billion, or 21 percent, from the fiscal year 2018 
request. We will use these resources strategically as part of a new 
approach to relief in the near term to boost burden sharing by other 
donors, improve U.S. Government internal humanitarian assistance 
coordination, and catalyze reforms and efficiencies at the U.N. and 
with other partners. Additionally, the administration is developing a 
proposal to reorganize how humanitarian assistance is provided across 
State and USAID to maximize our capacity to drive strong U.N. 
humanitarian system reform, increase global burden-sharing, minimize 
duplication of effort in our programming and policy, and maximize 
efficiency in meeting humanitarian needs and resolving underlying 
crises. The ultimate objective is to maximize the impact of hard-earned 
U.S. tax dollars and deliver the best outcome for those dollars.
    The President's budget continues global health funding at a level 
that will support our work and our leadership in this area, including 
through flagship programs like PEPFAR and the President's Malaria 
Initiative.
    We continue our support for these assistance programs because we 
know they are a projection of American leadership and they contribute 
to economic growth, and social and political stability. They are not 
only measures of the values of the American people, but they contribute 
to our interests.
    As we have seen with outbreaks of Ebola and other diseases in the 
past few years, these health programs have provided a foundation to 
prevent, detect, and respond to infectious diseases of epidemic 
potential, which helps protect the American people.
    American values must be communicated to the world at all times. The 
fiscal year 2019 budget request further defends and advances America's 
values by devoting $565 million to public diplomacy programs. These 
programs are essential to informing public opinion abroad and 
communicating American values like respect for human rights and the 
rule of law. The people of the world must know not only the policies, 
but also the principles for which the United States stands. Even as our 
public diplomacy budget calls for greater burden-sharing of long-
standing programs, the $55.4 million requested for the Global 
Engagement Center covers both its original counter-extremist mission, 
plus an increase of $20 million to counter state-sponsored 
disinformation campaigns. We will not tolerate Russian interference in 
the 2018 elections, and we will continue to take action to prevent it.
    Finally, I would like to update you on what is happening inside the 
Department. The Department's workforce is our most valuable asset. 
Since becoming Secretary, one of my highest priorities has been 
ensuring that the finest foreign affairs professionals in the world are 
fully prepared and empowered to achieve our mission. I am unleashing 
our teams to do what they do best on behalf of the American people.
    In my first 2 months, I've held a town hall for all staff and 
regular ``Meetings with Mike'' to listen to their expertise and answer 
their questions. I am committed to working as one team with all our 
personnel.
    With so many challenges before us, the State Department needs a 
full team on the field, from locally employed staff around the world to 
senior leaders in Washington. That's why I lifted the Eligible Family 
Member hiring freeze as one of my first acts as Secretary, and also 
lifted the hiring freeze for all Foreign Service and Civil Service 
personnel. All Foreign Service and Civil Service hiring will be 
consistent with the funding levels that Congress recently enacted.
    Additionally, I know that our career professionals work best when 
the goals are clear and the leadership team is at full strength. I have 
devoted a great deal of time to filling vacancies at the Under 
Secretary, Assistant Secretary, and Ambassador levels.
    We need our men and women on the ground, executing American 
diplomacy with great vigor and energy, and representing our great 
nation. We need the best tools as well: this budget would also invest 
$150 million for IT modernization. We need to work at the speed of 21st 
century diplomacy.
    As I have said many times, my great goal is to restore the 
trademark State Department swagger that has been instrumental in 
advancing American security, prosperity, and liberty for centuries. I 
define swagger this way: we must be everywhere with the best ideas and 
solutions. We must create value during the policy formation process. We 
must outwork and out-hustle others. We must be aggressive in working 
with our allies and ferocious in defending American values against our 
adversaries.
    Today I ask for your support to ensure that our diplomatic, 
development and organizational initiatives are successful for the State 
Department and USAID, and, most importantly, for the American people.
    Thank you for your time. I will be glad to answer any questions you 
may have.

    Senator Graham. Well, thank you, Mr. Secretary. We'll do 6-
minute rounds and just get on with it.

                              AFGHANISTAN

    Let's start with Afghanistan. Do you know General Miller?
    Secretary Pompeo. I do know General Miller.
    Senator Graham. I asked him point blank what would happen 
if we withdrew in the next 6 months in Afghanistan. He said he 
thinks it would lead to a lot of disorder and chaos. Then I 
asked him, ``Do you think it would be any different than Iraq 
when we left too soon?'' ``Senator, from my point of view, I 
think it would be similar.'' ``What are the concerns?'' ``I 
would be concerned about ISIS and Al Qaeda's ability to merge 
and project external operations because I know they want to, 
and I know they're consistently looking for that opportunity.''
    Do you agree with that assessment of Afghanistan?
    Secretary Pompeo. I do.
    Senator Graham. Do you agree with me that if we left 
without conditions-based withdrawal that you could not do much 
without security in terms of the State Department and USAID? 
Your people would be sitting ducks.
    Secretary Pompeo. I do.
    Secretary Graham. So I just want you to convey that to the 
President, that we will keep the aid coming to Afghanistan, 
make sure it's metrics-based, make sure we don't waste our 
money. But I just don't see how the State Department can 
operate if the security environment doesn't exist, and if we 
withdraw too soon, it will fall apart, and that's just the way 
the world is.

                              NORTH KOREA

    In terms of North Korea, if we're able to achieve an 
agreement with North Korea, do you believe it would be wise to 
send it to the Congress?
    Secretary Pompeo. I do.
    Senator Graham. Senator Schumer and Leahy and several other 
Democratic colleagues sent you a letter about what a good deal 
would look like with North Korea: First, any agreement with 
North Korea must be built on the current nuclear test 
suspension and ultimately include the dismantlement and removal 
of all nuclear, chemical, and biological weapons from North 
Korea. Second, our goal must be the full, complete, and 
verifiable denuclearization of North Korea. Third, North Korea 
must continue its current ballistic missile test suspension, 
including any space launch, ultimately dismantling their 
program, and North Korea must submit to anytime, anywhere 
inspections, and any agreement with North Korea must be 
permanent in nature.
    Is that an outline of a pretty good deal?
    Secretary Pompeo. I said ``I do'' three times. It's 
starting to sound like my wedding. Yes. That's an outline of 
the kind of deal that would achieve what President Trump is 
intending to do in our discussions with North Korea.
    Senator Graham. So I am encouraged to find that there's 
bipartisan support for what a good deal should look like. How 
we get it is--we'll do our best, and I think you're the right 
guy to try, and I hope we succeed, because if we fail, it will 
be very bad.

                                 SYRIA

    Syria--we have about 2,200 troops in Syria. Is that 
correct?
    Secretary Pompeo. That's correct, yes, sir.
    Senator Graham. And the State Department's plan for Syria--
can it be accomplished without some military presence on our 
part any time soon?
    Secretary Pompeo. Senator, we're not at a place yet. We're 
taking the lead to achieve the political resolution that has 
proven elusive since the uprising in Syria. We are not yet in a 
position where we have sufficient leverage to achieve the 
political outcome that is in the best interest of the United 
States and the world.
    Senator Graham. If we withdrew from the north without sound 
thinking, do you worry about the Turkey-Kurdish conflict 
arising anew?
    Secretary Pompeo. So there are a number of things that I 
worry about in the north. You certainly described one of them. 
In Idlib Province, Al Qaeda Nusra front a host of terrorists as 
well that I'm very concerned about.

                                 TURKEY

    Senator Graham. President Erdogan just was reelected. I 
think he has a 5-year term. Can you outline for this 
subcommittee where you think we're at with Turkey, and what 
could we do to help the administration to make Turkey a better 
partner?
    Secretary Pompeo. So in my time in this administration, 
it's been difficult with the Turks. It was difficult before 
that as well. Our decision to work closely with the Syrian 
Democratic Forces (SDF) was something that they were not happy 
about. We've made progress now 3 weeks ago in and around 
Manbij. We came to an understanding about our forces would work 
together to resolve a very complicated issue between Kurds and 
Arabs and a real mix. So progress, and we are hopeful we can 
build on that. They will ultimately be part of a political 
resolution there and an important part, and we need to 
recognize that and do our best to work alongside them. Now that 
the election is over, I'm hopeful we can begin an even more 
productive conversation with them.

                                  IRAQ

    Senator Graham. Iraq--could you give us an assessment of 
the political progress in Iraq, some of the challenges, and, if 
you could, answer this question: If the Iraqis would accept a 
residual force made up of NATO and U.S. forces, do you think 
it's in our interest to leave that force behind?
    Secretary Pompeo. So that's the current administration's 
plan. There is some work that will be advanced, I hope, at the 
NATO summit here in a few days to develop that NATO force. 
We've watched closely--our ambassador there and our team on the 
ground--as the election took place, and now government 
formation efforts have begun to achieve a government in Iraq 
that was an Iraqi national unity government with as little 
Iranian influence as we can possibly achieve. We're doing our 
best to facilitate that where it's appropriate.
    But, ultimately, the Iraqi people will decide the formation 
of their government. I hope it's one where we can reduce the 
influence of Iran. I think most of the Iraqi people want that 
as well.

                                 YEMEN

    Senator Graham. Speaking of Iran, Yemen, do you think it's 
important that Iran not be allowed to dominate Yemen through 
the Houthis or any other group?
    Secretary Pompeo. I do, and we can see even as recently as 
today enormous Iranian influence impacting how the Houthis are 
responding to the current actions taking place in Yemen.

                                  IRAN

    Senator Graham. Do you trust the Russians to drive the 
Iranians out of Syria?
    Secretary Pompeo. That's a specific question. I could 
probably generalize the answer. With respect to the Russian 
capacity to do that is an open-ended question, and if they 
could achieve that, if the Russians could get the Iranians out 
of there, I would applaud it.
    Senator Graham. Yes, well, I trust them about as much to do 
that as I do to police chemical weapons.

                           FOREIGN ASSISTANCE

    Finally, your counterpart, Secretary Mattis, and the 
Department of Defense--you all have been a great team, by the 
way--when he was CENTCOM commander, he said the following, 
paraphrasing: If you cut the State Department's budget, you'd 
better buy me more ammunition. Do you agree with that general 
concept?
    Secretary Pompeo. Conceptually, diplomacy is and ought to 
be at the very center of dispute resolution around the world 
and can keep our young men and women in uniform out of harm's 
way.
    Senator Graham. Well, this subcommittee and full committee 
is open to you 24 hours a day, 7 days a week, to help you. We 
may have our differences, but I really am pleased with the 
leadership you've shown early on, and we want to help you be 
successful.
    Senator Leahy.
    Senator Leahy. Thank you, Mr. Chairman.

                    FISCAL YEAR 2019 BUDGET REQUEST

    Secretary Pompeo, in earlier testimony, you highlighted 
four areas of the budget--security assistance, funding to 
counter ISIS, humanitarian aid, and global health--as 
priorities of the administration that are sustained or 
increased compared to the fiscal year 2018 request. The fiscal 
year 2018 request, of course, was a slash in funding for each 
of those programs, and was rejected by Republicans and 
Democrats alike in the Congress.
    Now, the President's fiscal year 2019 request compared to 
the fiscal year 2018 enacted level is global health would be 
cut by 23 percent, humanitarian aid would be cut by 17 percent, 
and security assistance would be cut by 19 percent. Is there 
anything you would change about the fiscal year 2019 budget 
request?
    Secretary Pompeo. It did happen before my time. I'll get my 
swing in fiscal year 2020. But suffice it to say I know when 
the budget was put together--the President has lots of things 
to consider, not just State Department's budget--it was an 
effort to try and balance. You all were gracious and we got an 
increase at State Department and at DoD, things that impact 
national security. We're looking forward to our conversation 
with you.
    Senator Leahy. Would you be horribly upset if we did as we 
did in the last budget to restore the cuts?
    You don't have to answer that.
    Secretary Pompeo. The answer is I'm looking forward to the 
conversation so that we can get it right. We can make sure that 
we don't have resources we don't need and we have the ones that 
we do.
    Senator Leahy. My question is as much rhetorical as 
anything, because the Congress intends to restore the cuts.

                              NORTH KOREA

    I am told there are a number of requests for a briefing 
about North Korea, and that it has been rescheduled a couple of 
times at your request. The President has said that North Korea 
no longer poses a nuclear threat. We're concerned about that. I 
am going to want to ask you what, if anything, North Korea has 
done to dismantle its nuclear arsenal. I realize these are 
questions you cannot answer in open session. Will you commit to 
an all Senators briefing--we can have it in a classified 
setting--to discuss exactly where we are with North Korea?
    Secretary Pompeo. I will, or I do, yes. I'm happy to 
provide that briefing.

                                  IRAN

    Senator Leahy. Thank you. Before the Iran nuclear agreement 
was signed, Prime Minister Netanyahu and others said that Iran 
was only weeks or months away from building an atomic bomb. 
That is why many supported the agreement. You recently gave a 
speech on Iran policy. You listed 12 conditions Iran must meet 
in order for the Trump administration to agree to a new deal. 
Iran immediately rejected the 12 conditions. The European 
Union's foreign policy chief stated there was no alternative to 
the Joint Comprehensive Plan of Action (JCPOA). So if in the 
next month, or in 3 to 6 months, Iran resumes full speed ahead 
to build a nuclear weapon, what do we do?
    Secretary Pompeo. So I'll describe to you the path forward 
as we see it. You referred to the 12 structural changes we hope 
that the Iranian leadership will undertake. I think a fair 
reading of any of those would come to nothing more than asking 
Iran to be a normal country, the same kind of thing we ask of 
Belgium and others.
    Senator Leahy. I don't dispute that, Mr. Secretary, but the 
Iranians have rejected the conditions. So what do we do?
    Secretary Pompeo. We put pressure on them in the same way 
we do other countries that present proliferation risks. We 
execute diplomacy. We do our best to gain allies. We've made 
progress on that. We've got allies all across the Gulf states. 
We've got allies in other parts of the world. We'll be meeting 
at the political ministry level a week from today. I'll be 
meeting with my foreign minister counterparts in Brussels here 
before long to develop a path forward.
    Senator Leahy. Well, is Mr. Netanyahu right that Iran is 
only weeks away from building a nuclear weapon?
    Secretary Pompeo. I don't want to get into the details of 
the intelligence, but I think we have publicly said before that 
they have a breakout capacity that is in a number of months, 12 
months to be more precise.

                    CUBA AND CHINA HEALTH INCIDENTS

    Senator Leahy. Thank you very much. I want to ask about the 
health incidents involving U.S. personnel in Cuba and China. In 
Cuba, the administration has repeatedly, from the beginning, 
referred to them as attacks. In China, when the same thing 
seemed to have happened, they were called incidents. In Cuba, a 
Level 3 Travel Advisory was triggered by the ordered departure 
of Embassy personnel. In China, the Department issued a health 
alert, and no ordered departure.
    You said China has responded in a way that is exactly the 
right response. In Cuba, we were told that they failed to take 
appropriate steps to protect our diplomats. Why the difference? 
Was it not the same event in both China and Cuba?
    Secretary Pompeo. Senator, that's a very good question. I 
don't know if they were the same events. It is the case that 
the medical condition, the single medical condition to date in 
China is, as the medical folks would say, consistent with what 
happened in Cuba. We're now up to two dozen plus in Cuba. We do 
not know the source of either of these. We are continuing to 
investigate in both places. We have received better initial 
responses from the Chinese Government than we did from the 
Cuban Government on how to deal with them. But neither of those 
has led to a satisfactory outcome so we can determine how to 
keep foreign service officers and State Department officials 
and Foreign Commercial Service Office officials serving in 
embassies in those two places safe.
    Senator Leahy. And we have not thrown Chinese foreign 
diplomats out of the United States as we did Cubans for 
virtually the same kind of attack.
    Secretary Pompeo. At this point, the magnitude, scope, 
consistency, time period are different. But, Senator, I am 
deeply aware that if we determine that we face a similar 
situation there, you can expect that the response that our 
Government would take would be commensurate with the rest of 
our officers.
    Senator Leahy. My time is up. I will speak further about 
this at some point.
    Senator Graham. Senator Hyde-Smith.
    Senator Hyde-Smith. Thank you, Mr. Chairman.
    Thank you, Mr. Secretary, for being here. I, too, am very 
glad you're here and appreciate that you recognize the 
seriousness of everything that we're facing. I have a lot of 
confidence there. So thank you for serving.

                               HEZBOLLAH

    Mr. Secretary, as you're well aware, Israel is our closest 
ally in the Middle East. It's a democracy surrounded by many 
enemies whose stated policy is its destruction. One of those 
enemies is Hezbollah. How would you describe the relationship 
between Iran and Hezbollah?
    Secretary Pompeo. So Hezbollah is a fully funded client 
terrorist organization of the Iranian regime, active along 
multiple dimensions, certainly kinetic, that is, small arms and 
rockets, a very capable intelligence force, active not only in 
the region in the West around the Israeli-Lebanon border, but 
now also active in supporting Iran and Assad in Syria as well. 
And I should add Hezbollah also has active efforts for external 
plotting, including in places like the United States.

                            ISRAEL SECURITY

    Senator Hyde-Smith. Do you have the appropriate amount of 
resources to carry out a policy, which supports Israel's 
defense and stability?
    Secretary Pompeo. I believe that we do, yes, ma'am.
    Senator Hyde-Smith. And, lastly, what are the areas of 
cooperation the United States needs next with Israel?
    Secretary Pompeo. My experience, I guess, just 8 weeks 
here, but in my previous role, is we have no better partner 
along many dimensions than the Israelis, not only in the work 
that we do to help keep Israel safe and secure, but the work 
that they do to help us push back against terror threats 
against the United States as well. There may be other 
opportunities to do more and do better, but we have a really 
solid working relationship across diplomat, military, and 
intelligence agencies in each of our two governments.
    Senator Hyde-Smith. I know you've been very busy. You and I 
both have been on the job about the same amount of time, about 
2 months. Thank you very much.
    Senator Graham. Senator Shaheen.
    Senator Shaheen. Thank you, Mr. Chairman.

                              NORTH KOREA

    Mr. Secretary, thank you for being here this afternoon. I 
know that the administration is committed to an agreement with 
North Korea on their nuclear weapons that I think has been 
described as complete and verifiable. Is that the term that you 
use in talking about that agreement?
    Secretary Pompeo. Yes, ma'am.
    Senator Shaheen. In order to get that kind of an agreement, 
I think we need to know--and, hopefully, you will agree with 
this--that we need to know the scope of their nuclear weapons 
program. So we need to know how many weapons they have, how 
much nuclear material, facilities, that sort of thing.
    Can you tell me--have we requested that kind of a list from 
North Korea, and what is their response to that request?
    Secretary Pompeo. Yes, ma'am. I'm confident I'll get a 
handful of questions like this today. I'm going to answer them 
each the same way. I'm not prepared to talk about the details 
of the discussions that are taking place. I think it would be 
inappropriate and, frankly, counterproductive to achieving the 
end state that we're hoping to achieve. They're watching this 
hearing.
    Know that it is unmistakable the things that we know that 
the North Koreans know we need, not only from the President's 
summit but from the previous encounters that I've had. There 
were a significant number of working level meetings that took 
place in multiple places, including in Panmunjom, in the run-up 
to the Singapore summit, that North Koreans understand the 
scope of the requests that we're making with respect to 
denuclearization and the elements that would be required.
    One of those elements, obviously, would be a thorough 
understanding of each of the elements you laid out, their 
fissile material on hand, their capacity to continue to develop 
that material, weaponization efforts, engineering, physics 
efforts, as well as the weapons and missiles that would deliver 
them. So we've been pretty unambiguous in our conversations 
about what we mean when we say complete denuclearization.
    Senator Shaheen. My understanding in the past negotiations 
is that North Korea has been unwilling to provide that kind of 
an inventory of what they have. Can you at least tell us who is 
leading the continuing negotiations with North Korea? Is there 
an interagency group that's doing that? Are those negotiations 
ongoing? Where are they taking place?
    Secretary Pompeo. Yes, ma'am. With respect to your first 
point, it is the case that previous efforts have not been able 
to achieve that complete declaration of the North Korean 
systems. Some small pieces, some pockets they were able to 
achieve. It's not been done. I now think I've spoken to most 
all of the folks who have gone at this problem previously. I 
spoke to Chris Hill just again this past week.
    With respect to ongoing negotiations, it's me. I'm leading 
the effort. It's an interagency effort. We have significant 
teams that stretch from our organization, multiple pieces of 
our organization, our proliferation experts, our Korea-Asia 
experts, because this is not just a U.S.-North Korea issue at 
the end of the day. So a broad range of State Department 
excellence, DOE, DoD--I'm going to forget somebody and they're 
going to come after me. There are NSA officials serving, 
helping us as well. But the effort, the negotiations at the 
working level, are being led by my team.
    Senator Shaheen. And those negotiations are ongoing?
    Secretary Pompeo. Yes, ma'am.
    Senator Shaheen. I believe the fourth tenet of the 
agreement that was signed in Singapore had to do with returning 
the remains of Americans who are still missing in action from 
the Korean war. One of my constituents in New Hampshire runs a 
nonprofit that seeks to locate and repatriate the remains of 
Americans who are still missing. I know that the President has 
made some statements--most recently said that they've already 
sent back or are in the process of sending back the remains of 
our great heroes. It's my understanding that, in fact, we have 
not yet received any remains from North Korea and that in the 
past, the efforts to repatriate those people who died in the 
Korean war have been fraught with difficult challenges. Let's 
put it that way.
    So can you tell me what the status is of those transfers, 
and are we expecting any remains to be repatriated any time in 
the foreseeable future?
    Secretary Pompeo. I am optimistic that we will begin to 
have two opportunities. One is to receive some remains in the 
not too distant future. But then there's a great deal of work 
with companies like the one you described, nonprofits and the 
like, who have been at this previously. We will need to gain 
access for that process to begin.
    We are intent on denuclearization. Make no mistake about 
it. But we are also, for all the obvious reasons, intent on 
doing our best to get back as many remains for America. There 
are other foreigners there as well. We've had other countries 
ask to participate in this, too. We are dogged in trying to 
facilitate this as quickly as we possibly can.
    Senator Shaheen. Thank you. I appreciate that. And just to 
be clear, we have not yet received any----
    Secretary Pompeo. That's correct, Senator. We have not yet 
physically received them.

                                 SYRIA

    Senator Shaheen. Thank you. I know that Syria has come up 
in the hearing this afternoon already, and I think maybe it was 
Senator Graham who mentioned Manbij and the situation there. 
Are you aware of any plans to withdraw our forces from around 
Manbij?
    Secretary Pompeo. No, ma'am. Let me back up and say this 
more clearly.
    Senator Shaheen. In the near immediate future.
    Secretary Pompeo. Yes, that's correct, and conditions-based 
as agreed to with the Turks. There's an outline for how we're 
going to execute this, what the objectives are, and how that 
would be undertaken jointly by each of our two countries.
    Senator Shaheen. So I said immediate future. How do we 
define that? Are we talking weeks, months, end of the year, 
next year?
    Secretary Pompeo. There's no timeline. It is truly 
conditions-based. It's when we believe we have set up political 
processes that can sustain the conditions on the ground in 
Manbij in a way that's satisfactory to each of the two sides.
    Senator Shaheen. Thank you.
    Thank you, Mr. Chairman.
    Senator Graham. Senator Lankford.
    Senator Lankford. Thank you, Mr. Chairman.
    Mr. Secretary, it's great to see you again. Every time I 
flick on the news, you're on another continent, and you're 
taking care of another big issue. From a grateful nation that 
sees a lot of the issues that are happening around the world 
and realize that there are many, many issues around the world, 
thanks for taking those on, because you have become the tip of 
the spear in diplomacy for taking a lot of very, very difficult 
issues on. So I appreciate you doing that very much.

                            CENTRAL AMERICA

    Let me bounce around several different comments with you 
and be able to talk through some things. Central America has 
been very near and dear to my heart, and I've engaged multiple 
times with the folks in the Northern Triangle, Guatemala, 
Honduras, and El Salvador. I think they're exceptionally 
important, not only to the Western hemisphere. In immigration 
issues, they'll be exceptionally important. This Congress has 
committed over and over again dollars to that area. Vice 
President Biden--this was a major effort that he had, the 
Alliance for Prosperity. We followed through at the end of the 
Obama administration with funding, and we've done it two more 
times for that--have another $500 million-plus going to the 
region again.
    My question is: Are we doing this well? Can you track some 
of the metrics there? Are there things that we're doing well 
that you see impact? Are there things that we need to do better 
in what we're doing that would have a greater impact and 
engagement with that region?
    Secretary Pompeo. That's a great question, Senator 
Lankford. I don't know the answer to that. I will say we have 
devoted a great deal of U.S. resources to this, not only the 
money that you speak of, but time. The Vice President is there 
today, having conversations that aren't too different than the 
ones Vice President Biden had. That would suggest that it would 
be worse absent us having done that, or that we haven't made 
sufficient progress.
    It's something I've asked my team to come back and describe 
to me, what we've done, which programs work and don't. We have 
several. We have some that fall into our Bureau of Population, 
Refugees, and Migration (PRM), others that go through USAID, 
others that are facilitated through DoD. We need to figure out 
which ones work and a path forward so that we can stabilize 
that region and improve their chances for democracy there and 
reduce the immigration issues that bedevil us today.
    Senator Lankford. The requirements that we put on that 
money, the metrics that we require, the method of how we 
distribute it--any issues or concerns you have?
    Secretary Pompeo. I'm sorry?
    Senator Lankford. With how we're distributing the money and 
any requirements we're putting on them to receive it, because, 
for instance, Honduras is receiving a greater amount than 
Guatemala is based on certification. Is that working, not 
working? Is that--what would your suspicion be?
    Secretary Pompeo. I suspect that the conditions that are in 
place reduce our flexibility in a way that sometimes reduces 
our ability to be effective. I can't answer that any more 
specifically today.

                                 MEXICO

    Senator Lankford. I appreciate that. The Mexican elections 
has moved north a little bit here. They are coming up this 
weekend. Obviously, there's a lot riding on our southern 
partner and what happens in those elections. What engagement do 
we have right now? Are we in a wait and see mode to see what 
happens and how we're going to engage?
    Secretary Pompeo. We're not in a wait and see mode. There's 
too much going on. We deal with them across a broad range of 
issues, not the least of which are people, immigration issues, 
narcotics, transiting issues, as well as goods, stuff coming 
across, and you see that in our trade negotiations as well. 
Those are ongoing.
    I've met with Mr. Videgaray a number of times in the course 
of my first 8 weeks. I expect that I will head that way before 
too long, after the election, to meet with both the current 
government and perhaps whoever is elected. They are an 
important southern nation. They present lots of opportunity and 
lots of challenges for our country.

                       INTERNATIONAL BROADCASTING

    Senator Lankford. Yes, I agree. Let me switch gears a 
little bit. There is a tool that--the BBG and Voice of America. 
I'm interested to know in our cooperation with them--because 
they are the forward face around the world for the United 
States. What kind of cooperation do we see with the messaging 
that you would see as valuable to be able to put out as a face 
for America and a messaging for the American message? Much of 
the world gets their view of America from Voice of America and 
the BBG. Where is that integration right now? What needs to be 
better?
    Secretary Pompeo. I haven't had a chance to visit with them 
yet. My counselor who I brought in has had a chance to go out 
there. His report back was that there are pieces of it that are 
working well. They sync with what we're trying to do at the 
State Department, because we have a public diplomacy function 
operation as well--places it's working really well and others 
where I think he described it as broken, disconnected, not well 
functioning.
    There's been leadership challenges at the BBG. I think 
that's a polite description of what's taking place there. I'm 
hopeful that we have turned the corner and can begin to use 
what is an incredibly invaluable tool for American diplomacy.
    Senator Lankford. I agree it's a very, very valuable tool, 
but we seem to have three different forward communicating tools 
that are out there without real coordination and occasionally 
without good leadership in areas. That's an area that I think 
we need to do greater oversight here on this subcommittee and 
we would like your participation in to be able to help that 
out.
    Secretary Pompeo. The only thing I would add to that is I'm 
good--I agree. It is not an absence of resources. I actually 
believe we have ample resources to conduct that mission. It's 
on me and our team to execute them.

                                 SYRIA

    Senator Lankford. So let me ask you a hard question, not 
that any of these are simple, I guess. Can we move forward in 
Syria long-term with Iran present and with Assad present?
    Secretary Pompeo. No.
    Senator Lankford. Strategically, is that where we're going 
as a country? As we are negotiating with the Russians, as we're 
negotiating with the Turks and the Jordanians that are so 
exceptionally important to us in the region, do we have a 
consistent cooperation with them on that?
    Secretary Pompeo. So I've spent a fair amount of time 
working this issue. I'm hopeful we can get back to the 
political process that was stalled out before I took office, a 
couple of months prior to that. We have lots of regional 
allies. The Gulf states are all very helpful. The Jordanians 
are very helpful. The Europeans here, too, share a common 
understanding. The Israelis, most certainly. It is the case 
that the Assad regime has been enormously successful over what 
amounts to now, coming up on 7 years, I guess, since the 
beginning. From America's perspective, it seems to me Iran 
presents the greatest threat to the United States and the place 
we ought to focus our efforts, at least at the beginning, with 
respect to the political resolution.
    Senator Lankford. Great.

            UNITED NATIONAL RELIEF AND WORKS AGENCY (UNRWA)

    Mr. Chairman, I want to submit just a question for the 
record as well dealing with the United Nations Relief and Works 
Agency (UNRWA). The administration has requested to remove 
funding from the UNRWA. But I'd be very interested to know 
what's the strategy on what to do with that, because we're not 
going to walk away from the Palestinian people. But, clearly, 
the UNRWA model is not working and hasn't worked for decades 
and decades and decades. So I understand why we're reducing the 
funding, but I'd like to know the strategy of where we go now.
    Thank you.
    [The information follows:]

    Following an extensive review, the administration determined that 
the United States will no longer provide financial contributions to 
UNRWA. UNRWA's fundamental business model is simply unsustainable and 
has been in crisis mode for many years. We are very mindful of and 
deeply concerned regarding the impact upon innocent Palestinians, 
especially school children, of the failure of UNRWA and key members of 
the regional and international donor community to reform and reset the 
UNRWA way of doing business. Palestinians, wherever they live, deserve 
better than an endlessly crisis-driven service provision model. They 
deserve to be able to plan for the future. We have offered to begin a 
dialogue with key stakeholders about how some UNRWA services might be 
provided by others, as appropriate, in order to provide Palestinians, 
including children, with a more durable and dependable path towards a 
brighter tomorrow.

    Senator Graham. Senator Murphy.
    Senator Murphy. Thank you very much, Mr. Chairman.

                           ATLANTIC ALLIANCE

    Thank you, Mr. Secretary, for being here. Since charts are 
fair game, I will just briefly begin with one of my own. Mr. 
Secretary, this is a very short inventory of President Trump's 
insults towards our allies and partners. I know you can't read 
it. I can't even read it. The typeface has to be so small 
because we couldn't even include all of the deleterious things 
that the President has said about our historic allies over the 
course of the last year and a half.
    I think this treatment concerns both Democrats and 
Republicans, not because we don't think that our allies 
sometimes should be subject to criticism, but because we think 
that the pace and the vitriol of this criticism is harming in 
real time U.S. national security interests. The latest was a 
tweet that seemed to cheer on the political opponents and 
political opposition to the German chancellor. Especially in 
Europe, this difficult and hard treatment of our allies in very 
personal tones elevates the right and the nationalists, the 
very people who are trying to destroy NATO and the EU.
    So I guess it wasn't surprising to many of us that the 
Germans, in particular, have been so far a very hard case in 
the effort of this administration to try to reapply sanctions 
against Iran. They are not looking to us to reapply a sanctions 
regime. They're doing the opposite. They passed legislation 
that gives their companies attempted safe harbor or a hold-
harmless harbor from U.S. secondary sanctions.
    It's hard to imagine how we will put together a sanctions 
regime against Iran that, in your words, will be the strongest 
ever if we are creating this space between the United States 
and our allies in Europe. We should all remember that the U.S. 
does $300 million in trade, historically, with Iran. Germany 
does $2.5 billion. China does $23 billion.
    So maybe I'm just asking for an update on discussions with 
the Europeans and our partners with respect to progress being 
made or not being made to reapply sanctions. That's the 
foundation of the administration's plan, and it seems that this 
particularly rough treatment of our European allies is pushing 
us further away from that new sanctions regime against Iran 
rather than closer to it.
    Secretary Pompeo. Senator Murphy, it is the case there have 
been difficult discussions since the U.S. decision to withdraw. 
There's no doubt about that. The Europeans had consistently 
talked about a different view, a different path forward, a plan 
that they'd preferred we chose differently. But I will say over 
the last handful of weeks, there's an increasing recognition 
that we need to find a way forward together. So when I talked 
about building the toughest sanctions in history, I am still 
intent and optimistic that I can do it.
    Remember, it's not just about three European countries. 
There are many European countries that are prepared to assist 
us in this. There are countries throughout Asia. We have our 
Gulf state partners as well. This is a broad coalition. 
Sometimes the focus just ends up being on France and Britain 
and Germany, not to underestimate their importance. They're 
critical partners. I want them alongside of us for sure.
    But to get a global sanctions regime requires an effort all 
around the world. We have teams that have fanned out across the 
world in the weeks after announcement of the withdrawal to 
begin to work on shaping what that would look like. My 
recollection is that when the previous administration talked 
about their ability to build this up, they talked about it in 
terms of years. I'm hoping to beat that substantially.

                                 SYRIA

    Senator Murphy. I wanted to return to an answer you gave to 
Senator Lankford. He asked you if there was a way forward in 
Syria with Iran present, and your answer was pretty definitive. 
It was no. Iran was present in Syria, had influence there, well 
before the civil war started. I think most everyone that's 
watched that country over time doesn't foresee a circumstance 
in which at the end of this civil conflict, Iran won't still 
have a significant presence or influence.
    So your answer to Senator Lankford's question--is it a 
suggestion that the U.S. policy is to take a series of actions 
to pursue a course that rids Iranian presence or influence in 
Syria? Because that certainly seems to require a heavier lift 
of American involvement both on the military and diplomatic 
sides than this administration is willing to put in.
    Secretary Pompeo. Perhaps I was too definitive. Your 
factual observation about the fact that there was Iranian 
influence in Syria before the revolution is absolutely 
accurate. It would be my guess that there will be Iranian 
influence there when we all pass.
    But when I'm thinking of Iran, I'm talking about units and 
formations and command structure and Quds Force officers freely 
passing through the country, fomenting and underwriting, 
importantly, with financial assistance terror operations and 
forces in support of the Syrian regime. When I say Iran, I'm 
talking about their military capacity in a way that is very 
different today than it was, I think, when you're referring to 
10 or 15 years ago.

                     RUSSIA AND THE GROUP OF SEVEN

    Senator Murphy. That's fair. Lastly, we were all very 
surprised, our allies were surprised, when the President 
announced his interest in bringing Russia back into the G-7 
without pre-conditions. At the very least, he certainly didn't 
enunciate any conditions upon the invitation that he made 
getting ready for the G-7 conference.
    Has the position changed? Do we have an invitation open 
to--or are we willing to allow Russia to rejoin the G-7 if they 
have not fully implemented the Minsk Agreement?
    Secretary Pompeo. I think the President's comments speak 
for themselves in a sense of--and you saw Ambassador Bolton's 
announcement of the last hour or so. The President deeply 
believes that having Russia be part of these important 
geostrategic conversations is inevitable, and that there's a 
long history of that.
    We have about as poor a relationship with Russia as I can 
recall in my adult lifetime. We have been harder on Russia in 
this administration than has been the case in many previous 
administrations. The President is looking forward to an 
opportunity to find those handful of places where we can have 
productive conversations that lead to improvements for each of 
our two countries. I think, eyes wide open, that that field 
space is pretty small. They don't share our values in the same 
way that the European countries do, but I think the President 
is hopeful that we can reduce the temperature, reduce the risk 
for America and find a handful of places where we can perhaps 
get a good outcome in Ukraine.
    Senator Murphy. It sounds like the President, then, is open 
to allowing them to come back in if the Minsk Agreement isn't 
fulfilled if he were to get concessions somewhere else.
    Secretary Pompeo. I couldn't tell you how the President and 
I will make tradeoffs. It'll ultimately be his decision. I 
couldn't tell you which set of tradeoffs would ultimately be--
I'm confident that I could identify a set of tradeoffs for you 
for you to agree that that was the right outcome as well.
    Senator Murphy. Okay. Thank you, Mr. Chairman.
    Senator Graham. Senator Coons.
    Senator Coons. Thank you, Chairman Graham, Ranking Member 
Leahy.
    Thank you, Secretary Pompeo. It's great to be with you 
again. As you reference in your written testimony, there is an 
important opportunity for us together to build a development 
finance institution through something called the BUILD Act, the 
Better Utilization of Investments Leading to Development Act, 
which actually passed out of the Senate Foreign Relations 
Committee yesterday by a 20 to 1 vote. It has strong bipartisan 
support in both the House and the Senate and has been welcomed 
by the administration, and in a late revision, the Secretary of 
State will be the chairman of the board of the new institution.

             INTERNATIONAL DEVELOPMENT FINANCE CORPORATION

    So please tell me, if you would, how this new international 
development finance corporation will be a tool in the toolkit 
for the State Department, for USAID, for our Government overall 
to pursue development in the world and how you see it as a 
component part of advancing our interests and values in the 
developing world.
    Secretary Pompeo. Thanks, Senator Coons. Thanks for the 
question. So it doesn't replace any of the other things. It's 
not intended to eliminate other actions, other humanitarian 
assistance, other development assistance that we're providing. 
But it does fundamentally reshape how we think about it and how 
our organization thinks about it. It means we have to rise to 
the occasion, too.
    It won't be the first time, but it'll be the first time, I 
think, in a strategic and coherent way we work to bring private 
sources of capital to bear alongside the government 
assistance--certainly, U.S. resources, but resources from other 
countries as well, where we strategically identify targeted 
needs for development. We identify the kinds of capital that 
they need. It's not always the case that they need a grant. 
It's not always the case that a loan will work. There are lots 
of different structures that can be achieved, and what I think 
the BUILD Act accomplishes is it gives us the flexibility to 
identify a development need, bring to bear the right resources 
over the right time period, and manage it in a way that 
effectively delivers the outcome and measures it all along the 
way.
    Senator Coons. I look forward to working with you, should 
it be enacted, as we implement this new tool.

                            CENTRAL AMERICA

    When President Trump signed the Executive order ending the 
separation of children and families at the border, it didn't 
end the ongoing crisis in Central America that's one of the 
real drivers of families fleeing the chaos of three countries 
in Central America.
    Chairman Graham, I'd like to ask unanimous consent that an 
editorial from my friend and predecessor, Vice President Biden, 
be entered into the record.
    [The information follows:]

          The Border Won't Be Secure Until Central America Is
<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

Central American migrants at the San Ysidro border crossing in Tijuana, 
       Mexico, in April. (Carolyn Van Houten/The Washington Post)

By Joseph R. Biden Jr., June 25
Joseph R. Biden Jr. was Vice President of the United States from 2009 
        to 2017.
    When President Trump signed an executive order ending the 
separation of children from their families at the border, it did not 
end the crisis in Central America. Nor should it relieve our moral 
anguish at seeing the poorest and most vulnerable treated in ways that 
are fundamentally at odds with our nation's values.
    The moment also calls for a renewed focus on the so-called Northern 
Triangle of Central America--the countries of El Salvador, Guatemala 
and Honduras, which together represent the overwhelming source of 
migrants crossing our southern border. Unless we address the root 
causes driving migration from this region, any solutions focused solely 
on border protection and immigration enforcement will be insufficient.
    This is terrain I know all too well. In 2014, President Barack 
Obama asked me to lead the international response to the surge of 
migrants that ultimately resulted in 68,000 unaccompanied children from 
Central America crossing into the United States. That summer, I met 
with Central American leaders in Guatemala to chart a plan to reduce 
migration, as well as to make it clear that undocumented migration was 
risky, dangerous and offered scant hope of legal status or citizenship.
    It soon became evident that migration from Central America could 
not be resolved merely by stronger enforcement at the U.S. border, let 
alone by building a wall. Instead, we needed to tackle the drivers of 
migration: crime, violence, corruption and lack of opportunity. We knew 
the cost of investing in a secure and prosperous Central America was 
modest compared with the cost of allowing violence and poverty to 
fester.
    Following intensive negotiations between the Obama administration 
and the Northern Triangle presidents, Congress provided $750 million in 
2016 to fund a whole-of-government effort to effect deep and lasting 
change in Central America. Because Central American governments had 
long been perceived--with good reason--as corrupt, inept and incapable 
of delivering basic services to their citizens, I supported Congress in 
tying the aid package to concrete commitments by regional governments 
to clean up their police, increase tax collection, fight corruption and 
create the opportunities necessary to convince would-be migrants to 
remain in their countries. In turn, the countries pledged billions of 
dollars in their own money to deliver on the promise of prosperity, 
security and governance. We also implemented new programs to help those 
in immediate danger by allowing them to apply for asylum without the 
dangerous journey to the United States.
    By the end of the Obama administration, we began to see results. 
The murder rate in Honduras dropped by a third since its peak in 2011. 
Guatemala improved its tax collection and made inroads against 
corruption, renewing a vital U.N.-backed anticorruption commission 
until 2019. El Salvador was aggressively targeting the financial 
networks of transnational criminal organizations. Meanwhile, energy 
cooperation in the region extended access to electricity in countries 
such as Honduras, where as much as 12 percent of the population is 
still unconnected. But this progress required face-to-face diplomacy to 
convince leaders of these nations to act against their own political 
instincts and to establish clear benchmarks that demonstrated a real 
will to change. We knew that sustained, bipartisan U.S. engagement--
and, yes, pressure--were necessary for progress.
    The Trump administration came into office determined to slash aid 
to Central America, and only partially succeeded because of the 
pushback from engaged members of Congress on both sides of the aisle. 
Still, U.S. assistance has fallen by nearly 20 percent, from $750 
million in 2016 to $615 million this year.
    After a promising early conference in Miami on security and 
prosperity in Central America in June 2017, attended by Vice President 
Pence and several Cabinet secretaries, the three Northern Triangle 
presidents have not met jointly with a senior U.S. official in well 
over a year. By contrast, I met with them three times during my final 
year in office. Occasional bilateral visits such as the one earlier 
this month between Secretary of State Mike Pompeo and Honduran 
President Juan Orlando Hernandez cannot replace a comprehensive 
regional approach to reduce the drivers of migration.
    Fortunately, there is still time to build on the policy that 
emerged from the last major migration crisis in 2014--a policy modeled 
in part on the successful, bipartisan approach to Plan Colombia. When 
the Vice President travels this week to Guatemala, the president should 
send him with a mandate to revive the intense diplomatic and aid 
efforts that gave rise to the Alliance for Prosperity, and opened a 
window of hope for the most besieged countries in our hemisphere.
    We can both strengthen U.S. border security and treat migrants 
arriving from Central America with dignity and decency instead of 
cruelty and callousness. But their overwhelming desire to flee their 
countries and risk everything to enter the United States shows that 
their governments are still failing them. This migration will only 
continue unless we keep up the pressure and provide the support to make 
the Northern Triangle of Central America a prosperous and secure place 
to call home.

    Senator Coons. As the former Vice President lays out, 
unless we address the root causes of migration from Central 
America, any solutions focused solely on border protection and 
immigration enforcement will most likely be insufficient, and, 
repeatedly, the administration has proposed slashing aid to 
Central America. It has fallen nearly 20 percent from $750 
million in 2016 to just over $600 million this year.
    Do you agree, Mr. Secretary, that a renewed focus on the 
Northern Triangle countries of Central America, which together 
represent the overwhelming number of migrants seeking to cross 
our southern border, is necessary to address this problem, and 
will next year's budget reflect that increased priority? And 
when the Vice President travels to Guatemala this week, does he 
plan to revive diplomatic and aid efforts to support the U.S. 
strategy for engagement in Central America?
    Secretary Pompeo. The answer to your second question is 
yes. The answer to your first question--and I think Senator 
Lankford asked a similar question--I don't think the region has 
been lacking for American financial support. I think we've 
provided an awful lot of financial support to them over the 
past years, well intended, and I'm sure some of it effective. 
So I'm not certain what the right number is to ask for 
financial assistance.
    What I think is more important is that we ensure that 
there's an outcome that we can deliver. I am not convinced 
today, if you said, ``Mr. Secretary, you've got two times or 
three times as much money and you can spend it next year,'' 
that we could effectively deliver an outcome that would achieve 
what you're describing. I agree with your--the hypothesis of 
your question is right. If we don't resolve those issues in 
those three countries, we're going to have challenges along our 
southern border for years and years to come.
    Senator Coons. And I think it's important that we continue 
to meet our legal and treaty obligations and, if possible, by 
having better access to opportunities to apply for asylum for 
refuge at our embassies in these three countries rather than 
having families risk this very long and dangerous trek. I hope 
we can make progress on that.

                                 RUSSIA

    Let me ask a last series of questions. I know Senator 
Murphy was also asking about recent press statements by 
Ambassador Bolton and reporting that strongly suggests 
President Trump is planning to meet with Russian president 
Vladimir Putin.
    You know, on June 8, the Director of National Intelligence 
(DNI) Coats warned Russia is attempting to influence our 2018 
midterm elections this coming November and to divide the 
Transatlantic Alliance. He pointed out Russia has meddled in 
elections in France, Germany, Norway, Spain, Ukraine, and has 
otherwise overtly or covertly tried to divide the NATO Alliance 
and to interfere with our allies. Will Russian election 
interference in the United States and in a way that has harmed 
our key NATO allies be a focus of this summit with President 
Putin and a focus of the upcoming NATO summit?
    Secretary Pompeo. Here's what I can say. As far as the NATO 
summit, I've seen the agenda. That absolutely will be there. I 
know that. Every conversation that I'm aware of between the 
United States Government and our counterparts--certainly mine 
with Foreign Minister Lavrov now two or three times--I've 
raised the issue in each and every conversation. I am confident 
that when the President meets with Vladimir Putin, he will make 
clear that meddling in our elections is completely 
unacceptable.

                                 SYRIA

    Senator Coons. I hope our President will hold Putin and 
Russia accountable for their aggression against Ukraine, for 
their support for the murderous regime of Bashar Al Assad, for 
their interference in our election, and others. I am concerned 
by reports that in southwest Syria, the Assad regime is on the 
march and is taking aggressive action, and I wonder, if I 
could, in closing just ask--I agree with the proposition 
advanced by the Chairman at the beginning that we need to 
remain on the ground, we need to remain engaged in Syria in 
order to have the opportunity to shape any negotiations that 
might resolve this horrible conflict. Is it your understanding 
that we've sent some signal to Assad and to Russia that we 
won't block advances in southwestern Syria that might create 
now an opportunity for Iranian influence to advance closer to 
our vital allies, Jordan and Israel?
    Secretary Pompeo. The U.S. forces that are present there 
don't have the ability to reach to the region that you're 
describing. The Russians have flown missions in southwest Syria 
over the past several days as well.
    Senator Coons. Isn't that in violation of an agreement we 
had reached with the Russians?
    Secretary Pompeo. Yes, sir, it is, and we have both spoken 
to them about it and issued public statements indicating 
exactly that.
    Senator Coons. That would seem to me an important agenda 
item for an upcoming summit both with our vital NATO allies 
and, if there were to be one, with the president of Russia. 
Thank you.
    Senator Graham. Just to briefly follow up, are they 
listening to what we say and do they care?
    Secretary Pompeo. I'll answer the first. I can't speak to 
the latter. They're certainly listening. It's not just our 
voice. It's the voice of the Israelis and the Jordanians as 
well, who have made clear that we find moving in a way that is 
inconsistent with the agreement that was signed off on by 
Vladimir Putin himself is unacceptable.
    Senator Graham. Well, this is a defining moment, I think, 
for our presence in the Mideast. Russia is trying to take 
advantage of a vacuum that's been created by both 
administrations, and I hope that not only they listen to what 
we say, but they take seriously what we say, and, clearly, 
they're not.
    Senator Daines.
    Senator Daines. Chairman Graham, thank you for holding this 
hearing, and I want to thank Secretary Pompeo for your service 
and coming before this subcommittee today.

          PEOPLE'S REPUBLIC OF CHINA AND INDO-PACIFIC STRATEGY

    Secretary Pompeo, I spent more than half a decade in China 
in the private sector. I've led multiple congressional 
delegations (CODELS) to visit China since coming to Congress as 
well as its neighbors. In fact, I've been over there twice in 
the last 90 days. China's growing regional and global influence 
is readily apparent. I believe it's critically important that 
we, as a nation founded on freedom and the rule of law, avoid 
complacency and that we are clear-eyed about the challenges as 
well as the opportunities that China brings, especially in its 
relationship with the United States, a relationship I see as 
perhaps the most consequential relationship between any two 
countries in the 21st century. We cannot just view these 
ongoing negotiations as a standard trade dispute. But it's 
imperative that we keep in mind China's very strategic approach 
and long-term goal of becoming the world's superpower, both 
economically and militarily.
    Secretary Pompeo, in my view, there's only so much that can 
be done to counter China unilaterally. I strongly believe that 
it's critical we work with our allies, China's neighbors in the 
region to mitigate China's malign actions, whether it be in the 
South China Sea, their outright theft of IP, human rights 
abuses, or ongoing unfair trade practices. This is especially 
important as China is engaging with many of our allies now in 
the region via the regional comprehensive economic partnership.
    Secretary Pompeo, what are some of your strategic goals in 
engaging with our allies in the Indo-Pacific region to 
proactively counter Chinese efforts to expand its influence?
    Secretary Pompeo. Thanks for the question. Secretary 
Mattis, Secretary Mnuchin, and I have each spent substantial 
time working on exactly this problem set. You defined it pretty 
well. Our toolsets are relatively new in the sense of it is the 
case that I think this challenge that you identified that the 
world has been very complacent over the last--pick a time 
horizon--5, 10, 15 years, for sure. We are working through the 
multilateral organizations, such as the Association of 
Southeast Asian Nations (ASEAN), the Asia-Pacific Economic 
Cooperation (APEC), all of those to develop strategies in each 
of the domains that you described. We're working diligently to 
figure out how we can develop trade relationships in a way that 
are fair and reciprocal for the United States but that don't 
benefit China at the same time. You see what the President is 
doing with respect to China.
    Second, with respect to diplomacy, we will come next year 
and ask for increased resources connected to this region. I 
know that they did 2 years ago as well. That is, we need to be 
in each of those countries making clear the case that you are 
far better off with the United States as your partner and ally 
than you are with China. I think many of those countries didn't 
see the negative ramifications for moving closer to China over 
the last 5 and 10 years as well.
    And then Secretary Mattis himself has truly reconfigured 
the way that the Department of Defense is thinking about the 
challenge, not only in the South China Sea, but more broadly as 
Chinese expansion in and around, even through the Indian Ocean, 
has efforted to improve its capacity to do harm to U.S. 
interests and, frankly, to global trading interests as well.

                       TRANS-PACIFIC PARTNERSHIP

    Senator Daines. Secretary Pompeo, thank you, and I'm 
grateful to see this being elevated to more of a strategic 
level versus being somewhat, I would argue, tactical in the 
past. Along those strategic lines, I do believe the Trans-
Pacific Partnership (TPP) presents an opportunity to strengthen 
our ties with our allies, improve market access for U.S. 
farmers, ranchers, businesses, and substantially increase 
pressure on China, because a U.S. vacuum creates China to come 
in and fill it.
    Would you support efforts to re-engage with TPP nations in 
an effort to improve the agreement?
    Secretary Pompeo. I would. The President strongly prefers 
doing these things bilaterally as between us and each of those 
nations. But I do believe having improved trade relationships 
with each of the countries, both in Northeast Asia, Southeast 
Asia, and Asia more broadly, is not only good for the United 
States economy, but important for American national security as 
well.
    Senator Daines. I share that view as well, Mr. Secretary.

                                 RUSSIA

    I want to pivot over and talk about Russia for a moment. 
It's another adversary to U.S. interests, clearly. From their 
illegitimate annexation of Crimea to their efforts to interfere 
in U.S. elections, as determined by the U.S. Intelligence 
Committee, something you know a lot about, their behavior has 
been completely unacceptable.
    In particular, I'm very concerned about the continuing 
development of the Nord Stream 2 pipeline that has the 
potential to allow Russia to monopolize much of Europe's energy 
supply and undermine our European allies' ability to counter 
Russian influence. Will you use every tool available, whether 
via sanctions and authorities provided by the Countering 
America's Adversaries Through Sanctions Act or otherwise, to 
impede the development of this pipeline?
    Secretary Pompeo. We are actively engaged in an all-of-
U.S.-Government approach to convincing European governments and 
European businesses alike that increased energy dependence on 
Russia is inconsistent with what it is we're all trying to do 
in pushing back against Russia. Nord Stream 2 is one of several 
examples that we have made clear we think goes in completely 
the wrong direction in terms of allowing the Russians to have 
the capacity to exert political influence, not only in Germany, 
but all around Europe.

                              NORTH KOREA

    Senator Daines. Thank you. I want to shift back quickly as 
I close to Asia-Pacific and North Korea. Should North Korea not 
commit to a complete, verifiable, and irreversible 
denuclearization process, would you commit to walking away from 
the negotiating table?
    Secretary Pompeo. Yes. The President has made that very 
clear.
    Senator Daines. And, lastly, in your assessment, what risk 
is there of China utilizing a nuclear or unstable North Korea 
as leverage in other negotiations, whether it be trade related 
or otherwise?
    Secretary Pompeo. I'm sorry. Is the question what evidence?
    Senator Daines. What assessment--is there a risk of China 
utilizing that?
    Secretary Pompeo. I met with President Xi shortly after the 
Singapore summit. He assured me that they would work side by 
side along with us to denuclearize North Korea. At this point, 
I'm going to count on the fact that he has that shared 
objective with us. We are certainly watching to make sure that 
every country that's committed to helping us achieve that is 
actually doing it.
    Senator Daines. Thank you, Mr. Secretary.
    Senator Graham. Very briefly, do you see any backsliding on 
China's part when it comes to sanctions against North Korea?
    Secretary Pompeo. A modest amount, yes.
    Senator Graham. Senator Durbin.

                 THE NORTH ATLANTIC TREATY ORGANIZATION

    Senator Durbin. Thanks, Mr. Secretary. Mr. Secretary, do 
you believe NATO is obsolete?
    Secretary Pompeo. No, sir. I do not.
    Senator Durbin. When you go to the NATO summit in Brussels 
in a few weeks and you meet some of your counterparts from 
other countries, how will you explain that our President has 
said repeatedly that NATO is obsolete?
    Secretary Pompeo. I've had lots of conversations--I don't 
have to wait until I get to Brussels. I've had lots of 
conversations with them about NATO. The President has been 
completely unambiguous about his view. When he spoke in Warsaw, 
he made very clear his expectations for how we would achieve a 
strong united Atlantic unity.
    Having said that, it would have been very clear to them as 
well. It is time for them to care as much about pushing back 
against Russia as we do. So we have pushed them to increase 
their willingness to support NATO forces as well. Progress has 
been made, but to date, they've not even lived up to their own 
promises.

                                 RUSSIA

    Senator Durbin. It's my understanding in the next few 
months, the European Union will have a meeting and will vote 
again on whether to continue Russian sanctions. It's also my 
understanding that the new Italian Government has made it part 
of the platform of their government that they oppose Russian 
sanctions, and one nation can veto the sanctions regime of the 
European Union. It suggests, unless something we can't predict 
happens, that the European Union will lift its sanctions on 
Russia in a short time. Is that your understanding?
    Secretary Pompeo. I'm more optimistic than you are. I am 
very hopeful that as we continue to engage with the Europeans 
and the Italians, in particular, we can convince them that this 
sanction regime is important to achieving outcomes that are in 
the best interest of Europe and Italy, in particular.
    Senator Durbin. Well, I hope you can.
    Secretary Pompeo. We're hard at that effort already.
    Senator Durbin. I sincerely hope you can. But I would have 
to say that when you look at our foreign policy today, is it 
true or not true that we reject the Russian occupation--
invasion and occupation of Crimea?
    Secretary Pompeo. I want to make sure I answer and don't 
answer, a double negative. We reject that occupation.
    Senator Durbin. And we reject the Russian invasion, 
occupation of Eastern Ukraine?
    Secretary Pompeo. Yes, of course, sir.
    Senator Durbin. And Georgia.
    Secretary Pompeo. Yes, sir.
    Senator Durbin. And we believe that there's enough threat 
to our NATO allies and friends in the Baltics and Poland to 
have spent--to be spending additional sums of money for 
enhanced forward presence.
    Secretary Pompeo. Indeed, this administration has increased 
the Estonian Defense Forces (EDF), the advanced forces there in 
Europe.
    Senator Durbin. Do you think the suggestion of the 
President of rewarding Russia with membership in the G-7 is 
consistent with what you've just said?
    Secretary Pompeo. I think this administration has been 
unambiguously tough on Russia. I think it is indisputable.

                            CENTRAL AMERICA

    Senator Durbin. I might raise that question about the G-7 
conference. But let me ask you about another topical interest, 
immigration at our border. Would you agree with me that it's no 
coincidence that we're having border challenges at the same 
time we're facing the worst drug epidemic in the history of our 
country?
    Secretary Pompeo. I'm not sure I'm prepared to opine as to 
the correlation between those two precisely.
    Senator Durbin. Stick with me for a second. The drug gangs 
in Central America, the drug cartels in Mexico, have made many 
parts of those countries virtually lawless.
    Secretary Pompeo. Yes, sir.
    Senator Durbin. And the gangs are threatening innocent 
individuals who in desperation risk their lives to come to our 
border. The reason the drug gangs are prospering is because of 
the appetite for narcotics in the United States and the fact 
that we launder millions of dollars back into those cartels and 
gangs from our country. Do you see that connection?
    Secretary Pompeo. I do. I believe the number now exceeds 
$100 billion back to Mexico as a result of the drug trade.
    Senator Durbin. Do you believe we're doing enough when it 
comes to dealing with the laundering of money back into these 
drug gangs and cartels from sales in the United States?
    Secretary Pompeo. I believe that for many years, we have 
been ineffective with respect to the movement of monies back 
and forth in between the two that have supported those cartels 
and that drug trade. On the demand side here in the United 
States, we also have an awful lot of work left to do, and our 
efforts to support the defeat of the narco-terrorists in Mexico 
have also fallen short. I think in all three dimensions, there 
remains a great deal of work to do.

            OPIOID CRISIS AND THE PEOPLE'S REPUBLIC OF CHINA

    Senator Durbin. Could you address one insidious new 
narcotic, fentanyl and carfentanyl, which is now coming into 
the United States and taking many lives and threatens, as a 
synthetic opioid, to be a nightmare we can't even imagine in 
our future. What role is China playing in shipping fentanyl to 
the United States?
    Secretary Pompeo. A significant role over the past years in 
doing that. They have agreed to work with us. I think we're in 
a better place now than we were even just 6 months ago. 
Congress has been fantastic in providing resources to the 
executive branch to push back against this new truly grave 
threat.

                               VENEZUELA

    Senator Durbin. I visited Venezuela a few months ago, met 
with President Maduro, told him if he had a sham election, it 
wouldn't be recognized by any country in the world, and that he 
would continue a regime which has created a state of collapse 
in the Venezuelan economy and incredible negative outcomes in 
public health. Now that he's gone through with the election, 
what's our next step to put pressure on him to change?
    Secretary Pompeo. We will put additional sanctions in place 
against the regime. We will continue our diplomatic efforts. 
The State Department is--we had folks being--we returned the 
favor to them as well. But we are continuing our diplomatic 
outreach to try and create conditions where that country has 
some hope of returning to something that looks more like a 
democracy that the world--I'm hesitant only because it's an 
enormous challenge that our tools and capacity to have an 
impact on have proven insufficient to date.
    Senator Durbin. There's one tool we haven't used, and you 
know what it is. We are major purchasers of oil to Venezuela. 
It is critical to what remains of their weakened and failing 
economy. Would you consider imposing sanctions to stop that 
trade of oil between the United States and Venezuela?
    Secretary Pompeo. Senator, the administration has looked at 
this a number of times. We continue to review it. There are 
second and third order ramifications of doing that that make it 
a little more complicated, and I know you're aware of those, 
too. I know you get that, too.
    Yes, we are certainly reviewing whether there comes a point 
where we have to suffer the negative ramifications doing that 
in a way to achieve an outcome that gets the Venezuelan people 
a chance to avoid the humanitarian crisis that faces them. You 
have also most 3 million refugees leaving Venezuela. That's, I 
think, 30 million people--we're talking about almost 10 percent 
of the Venezuelan population.
    Senator Durbin. Thank you.
    Senator Graham. Senator Van Hollen.
    Senator Van Hollen. Thank you, Mr. Chairman.
    Welcome, Mr. Secretary, and thank you for your service.
    I'm in favor of summit meetings between the President of 
the United States and foreign adversaries when it advances our 
interests. I'm opposed to the summit meetings when it simply 
provides a propaganda windfall to our adversaries. I have to 
say I think the jury is still out on what happened in the 
summit between President Trump and Kim Jong Un.

                              NORTH KOREA

    What I do know is that there's a report in the Wall Street 
Journal today. The headline is ``North Korea Is Rapidly 
Upgrading Nuclear Site Despite Summit Vow.'' I understand we'd 
probably have to deal with that in a classified setting. But 
that's a very troubling report. You would agree, would you not, 
Mr. Secretary, that North Korea poses a nuclear threat to the 
United States?
    Secretary Pompeo. Oh, yes, sir.
    Senator Van Hollen. I just think it's important that the 
President not engage in, sort of, puffery on this, because 
after the summit meeting, as you well know, he sent out a tweet 
saying just the opposite. He said there's no longer a nuclear 
threat from North Korea. I just think we need to be very clear-
eyed as to the past history of negotiations with North Korea. 
Would you agree?
    Secretary Pompeo. Senator, absolutely, and to be clear-
eyed, what the President intended there, I'm confident what he 
intended there was we did reduce the threat. I don't think 
there's any doubt about that. We took the tension level down. 
If I'd have been having this hearing several months ago, you 
all would have been demanding that we reduce the threat. How do 
I know? Well, I watched them from----
    Senator Van Hollen. I understand your interpretation of the 
President's----
    Secretary Pompeo. So his point was--I think his point was a 
fair one. For the moment, we have reduced risk, and we're 
endeavoring to do that over a much----
    Senator Van Hollen. I understand your interpretation of 
what he said. What he tweeted was, quote, ``There is no longer 
a nuclear threat from North Korea.'' That was his statement. He 
didn't say we've reduced the temperature, we've reduced 
tensions. I would point out that he reduced tensions from the 
point where he took them to a boiling point and brought them 
down. But I don't want to engage in that. I just wanted to get 
a clear statement from you that you did agree that North Korea 
poses a nuclear threat to the United States.
    I want to follow up on a point that was raised and what the 
Chairman mentioned about President Xi and the Chinese and 
sanctions on North Korea, because in a press conference right 
after the summit, President Trump said that China was weakening 
its enforcement of the sanctions and then said, quote, ``But 
that's okay,'' unquote, and went on to say, quote, ``I think 
over the last 2 months, the border is more open than it was 
when we first started, but that is what it is.''
    Are we still pursuing a policy of maximum pressure on North 
Korea until we achieve our goals?
    Secretary Pompeo. I'll try and answer this with two points. 
I think one of them--I responded to a question from Senator 
Graham. It is the case that we have observed China not 
enforcing control over their cross-border areas as vigorously 
as they were 6 or 12 months ago. It's important to note that 
comes from an all-time high, that is, they had been enforcing 
sanctions in a way that we had never seen them enforce them 
before, in spite of previous administrations' efforts to get 
them to do so. We were singularly effective in getting them to 
reach that level of enforcement. Their violations today--the 
things they're doing today don't violate U.N. Security Council 
resolutions, so they are still on-sides.
    And then to your second point, it is the case that 
enforcement of existing sanctions remains an enormous priority 
of this administration. I say it a dozen times a day. No matter 
who walks into my office, from what country they are from, I've 
reminded them of the importance of doing that.
    Senator Van Hollen. Thank you. I'm glad to hear that 
placing maximum economic pressure on North Korea remains in 
place, and I agree, and I think on a bipartisan basis we 
supported that. In fact, Senator Toomey and I have a piece of 
legislation that would further increase those sanctions and 
reduce flexibility even further. We think that's an important 
message to send. But I do think it's very troubling that at 
that summit, it was discovered that China was reducing the 
level of sanctions they had in place before.

                                 TURKEY

    Let me ask you about Turkey. And, first, I know you agree 
that the Syrian Kurds have been a very important ally in our 
fight against ISIS, right?
    Secretary Pompeo. They have. Yes, sir.
    Senator Van Hollen. And just give me your assurance that 
you're not going to be bullied by Turkey or President Erdogan 
into throwing the Syrian Kurds under the bus.
    Secretary Pompeo. There's no administration intention to 
hurl any large yellow objects whatsoever.
    Senator Van Hollen. Thank you. Let me ask you about the F-
35s, because we've had a lot of testimony before the Congress 
from Defense officials, from the administration, and otherwise, 
that Turkey's acquisition of the Russian S-400s in combination 
with the F-35s would allow Russia to detect and expose 
potential vulnerabilities with the F-35, and that would present 
a national security threat.
    I know you testified over in the House that you were, 
quote, ``imploring,'' unquote, the Turks not to go forward. I 
think we want a more definitive statement. This subcommittee 
just passed last week legislation saying that it's one or the 
other. We want the Turks to get the F-35. But can you tell us 
today, Mr. Secretary, that we will not deliver the F-35s to 
Turkey until they pledge they won't acquire the S-400?
    Secretary Pompeo. We've been very clear with the Turks 
about the risks associated with their acquisition of the S-400.
    Senator Van Hollen. I don't know what you mean by risks. I 
think that they will only understand a very definitive 
statement. We sent them one. We sent them one, and I think it's 
important that the U.S. Government be on the same page. So I'm 
asking you to make a definitive statement, if not right now, 
which I think would be helpful, very quickly, because, as you 
know, there was the ceremony in Texas the same day the 
committee took the action here, and I think the more Turkey 
thinks that it can proceed down this path without a very firm 
absolute statement from the United States, the more this will 
drag out.
    We just should end it and make it clear: ``You have to 
choose. You're a NATO ally. You shouldn't be doing something 
that puts your fellow NATO allies at risk.''
    Secretary Pompeo. It's a very complex situation, Senator. 
We're certainly reviewing it. We've spoken with the Turks at 
great length. I spoke to my counterpart within the last handful 
of days. It's not just the F-35 and the S-400. The list is 
long. Pastor Brunson's return is paramount for us as well. I 
could go on with the challenges that we face. We are hopeful 
that the result of this election will put us in a place where 
we can have a set of conversations that lead us to an outcome 
that I think would please everyone on this subcommittee.
    Senator Van Hollen. Thank you, Mr. Secretary. I appreciate 
the fact that there's a long list. There is. What's happening 
in Syria with the Syrian Kurds is one. Pastor Brunson is 
another. But let's be really clear. Turkey has just unlawfully 
taken Pastor Brunson, and so I also would like your commitment 
that Pastor Brunson is not going to be used as a bargaining 
chip with Turkey for cooperation with the Turks, you know, in 
throwing the Syrian Kurds under the bus, or somehow we'll say, 
``Okay, you can go ahead and get the F-35s and the S-400s.''
    What they've done with Pastor Brunson is outrageous, and 
with the foreign nationals, by the way----
    Secretary Pompeo. Yes, they----
    Senator Van Hollen [continuing]. Who have worked for our 
Embassy for years.
    Secretary Pompeo. Yes, sir. You have my commitment. These 
issues are separate.
    Senator Van Hollen. Thank you, Mr. Secretary.
    Secretary Pompeo. That's the best description. We are not 
linking those issues in any way.
    Senator Van Hollen. Thank you, Mr. Secretary.
    Senator Graham. Thank you, Mr. Secretary. We're just about 
done. You've done a marvelous job. Just a quick wrap-up here 
and I'll let Senator Leahy ask anything he would like.

                      DEPARTMENT OF STATE STAFFING

    In terms of staffing, are you making progress?
    Secretary Pompeo. Yes, but not as rapidly as America needs 
us to.
    Senator Graham. Well, if there's anything we can do to help 
you, let us know.

                              NORTH KOREA

    If North Korea is watching the hearing, and I hope you are, 
take the deal. It would be good for you. It would be good for 
everybody.
    If diplomacy fails this time around--if you agree with me--
we're running out of peaceful options.
    Secretary Pompeo. Senator, I do, and I think at this 
point--I think the North Koreans appreciate that we are also 
serious about accomplishing the things that they've put on the 
table, the things that we've said we will do. The President 
made a commitment with respect to the senior level joint 
exercises. We now have paused one of the two annual major ones, 
Ulchi Freedom Guardian. We are following through on their 
commitments. It is our expectation that the North Koreans will 
begin to do that relatively quickly.
    Senator Graham. I'm okay with suspending exercises. You can 
always start them back. We train in other forms. I would not be 
okay with withdrawing our troops from South Korea, because I 
think they're a stabilizing force for the region, and I don't 
want China to take the wrong queue here. Do you agree with the 
idea that our troops in South Korea are stabilizing to the 
region?
    Secretary Pompeo. I do. Yes, Senator.
    Senator Graham. We will talk to you about an initiative I'm 
working on with Senators Coons and Leahy and others about the 
Sahel. It's a region in Africa that's falling apart. We're 
going to spend now or we're going to spend later, and I think 
there's an opportunity to get ahead of the problem. We're 
trying to do something with Gaza, because you just can't ignore 
that.
    I thank you very much for what you're doing for our 
country.
    Senator Leahy.

                                 UNRWA

    Senator Leahy. We spoke briefly about this before, Mr. 
Secretary, and a number of us, Republicans and Democrats alike, 
met with King Abdullah of Jordan earlier today. He was 
concerned about the U.N. Relief and Works Agency (UNRWA). 
Senator Graham was there, too.
    Our normal annual contribution to UNRWA is between $350 
million and $400 million. So far this year the administration 
has provided only $60 million. UNRWA runs schools and health 
clinics and provides other basic services for Palestinians in 
Jordan, Lebanon, the West Bank, and Gaza. I know King Abdullah 
feels strongly that the alternative to UNRWA schools are 
schools run by Hamas, and if UNRWA closes down their schools, 
instead of seeing a blue flag flying, we'll probably see black 
or green flags.
    What do we do about education for these kids? If we don't 
support UNRWA, what do we do?
    Secretary Pompeo. Senator, when the king was here, I was 
present when he spoke with the President on this very issue as 
well. There were a couple of ideas about how the United States 
might, along with others, provide funding so that those schools 
open at the--I think it's the end of August--so those kids 
aren't doing something that we don't want them to do or we 
don't have the wrong folks underwriting it.
    You know the challenges with UNRWA that have been, frankly, 
mismanaged and poorly led and corruption for quite some time. 
We are trying to find a mechanism by which we can achieve the 
two objectives you described, one, avoiding that challenge with 
UNRWA, and, second, making sure that those refugees that Jordan 
has agreed to take, those Palestinian children in Jordan, get a 
chance to go to school. I think we're getting closer. We're 
reviewing it. I think we're getting closer to a solution.
    Senator Leahy. Well, I have concerns there, and, of course, 
I have concerns in Lebanon, West Bank, Gaza, and so on. But in 
Jordan--if you look at the percentage of refugees they have--it 
dwarfs anything that the United States has done, with far less 
resources than we have. I hate to think what happens if these 
refugees have to go somewhere else, if the schools and medical 
facilities are provided somewhere else. We'd just light the 
fuse under a lot of them. You will find strong support on this 
subcommittee for the funding to do what is necessary. But the 
time is limited.
    Finally, you have said you support the Leahy Law, and you 
will enforce it, and that you will pursue the necessary 
resources for that purpose. It's a law that the State 
Department uses to vet foreign individuals and units to 
determine if they are eligible for U.S. aid. This is one case 
where American taxpayers are rightly concerned about aid going 
to a military unit or individuals in another country that, 
among other things, are raping young boys. It's not where we 
want to spend money. I appreciate you saying you will support 
it. Have all of our ambassadors been told they have to fully 
enforce the Leahy Law?
    Secretary Pompeo. Yes, sir. They are. It's part of their 
formal onboarding training processing.
    Senator Leahy. One U.S. ambassador said that the Leahy Law 
does not apply in the country where he is posted, so he doesn't 
have to look at if there are any violations. He would know we 
spent a great deal of money to help the police and military 
forces in that country. Is he correct?
    Secretary Pompeo. Senator, I'm not familiar with the 
situation. If you'll identify it for me, I will look into it. 
That does not sound remotely consistent with what I described 
to you.
    Senator Leahy. I appreciate that, and as we leave here, 
I'll tell you exactly who the ambassador is.
    Secretary Pompeo. Yes, sir.
    Senator Leahy. Thank you.
    Senator Graham. Thank you, sir.
    Secretary Pompeo. Thank you.
    Senator Graham. Very briefly.

                           WEST BANK AND GAZA

    Senator Van Hollen. Senator Leahy mentioned the UNRWA 
money. There's also the issue of some of the aid funding that 
had been previously allocated to the West Bank and Gaza, which, 
as I understand it, is being held up at the White House. I 
would appreciate it if you could maybe have a member of your 
team get back to us very quickly as to what the plan is on 
that.
    Secretary Pompeo. I'd be happy to. You can clearly tell 
from the expression on my face I need to go find out exactly 
what the status is of that.
    [The information follows:]

    In 2018, the President directed a review of U.S. assistance to the 
Palestinian Authority and in the West Bank and Gaza to ensure these 
funds were being spent in accordance with U.S. national interests and 
were providing value to the U.S. taxpayer. As a result of that review, 
we redirected to other high-priority projects more than $200 million in 
fiscal year 2017 Economic Support Funds originally planned for programs 
in the West Bank and Gaza.

    Senator Van Hollen. I mean, it's making--you know, it's a 
very complicated situation, but it's making a very desperate 
situation even worse.

                 RUSSIAN INTERFERENCE IN U.S. ELECTIONS

    The last thing I would just ask you to do, Mr. Secretary, 
regarding Russian interference in the elections--you've been 
very clear in previous testimony not only about the past 
interference, but what you project to be interference in the 
midterm elections. In the meeting they just had, or in the 
press conference they just had after National Security Advisor 
Bolton's meeting there, the Russian advisor at the Kremlin 
essentially said they had never interfered and they never will.
    What I'd like to do is--I've introduced a piece of 
legislation, a bipartisan bill, with Senator Rubio called the 
Deter Act, and the idea is not just to try to deal with it 
after the fact, but put in place some very clear disincentives 
that would automatically be triggered if we have a finding of 
interference in the 2018--your team has looked at it, and they 
think it's a little harsh in terms of the potential 
consequences. We'd really like your feedback as to what you 
think would be workable and achieve the deterrent impact, 
because it's easier to try to prevent the Russians from 
interfering in the first place than having to spend an awful--
we have to defend ourselves no matter what, but we should also 
have a first line of defense, and that's deterrence.
    Secretary Pompeo. Senator, I agree. I'll take a look at it. 
I'll take a personal--I haven't had a chance to see it. But we 
will provide you the feedback to that legislation substantively 
as detailed as we can provide. We'll give you our real 
thoughts.
    Senator Van Hollen. Thank you.
    [The information follows:]

    The sanctions proposed under the DETER Act would pose challenges to 
implement, and could have broad unintended consequences to U.S. 
business interests, European and Asian allies, as well as other 
partners. The administration is available to further discuss the 
implication of this legislation with the Appropriations Subcommittee.

                     ADDITIONAL COMMITTEE QUESTIONS

    Senator Graham. I would ask the subcommittee members to 
submit any questions for the record no later than this Friday, 
June 29, by 2:00 p.m.
    [The following questions were not asked at the hearing, but 
were submitted to the Department for response subsequent to the 
hearing:]
               Questions Submitted to Hon. Michael Pompeo
             Questions Submitted by Senator Mitch McConnell
    Question. I have heard from a number of constituents concerned 
about the recent changes to the intercountry adoption accreditation fee 
schedule. Will you please share how the Department of State intends to 
assist U.S. adoptive families and adoption service providers with 
questions related to the implementation of the new accreditation fee 
schedule?
    Answer. The Department approved the fee schedule proposed by 
Intercountry Adoption Accreditation Monitoring Entity (IAAME) because 
it complies with relevant regulations to facilitate an equitable fee 
distribution across all adoption service providers, according to size 
and number of cases, and reflects the need for increased focus in the 
area of monitoring and oversight.
    The Department has made a concerted effort to inform, anticipate, 
and explain the fees, their purpose, and structure to the public, 
including: having one-on-one interactions with all adoption service 
providers and advocacy groups; holding a series of conference calls in 
which providers could address their concerns directly to the 
accrediting entity; and providing comprehensive written materials about 
the new fees, their purpose, and benefits for families.
    Question. How does the Department of State intend to implement 
these changes and improve intercountry adoption monitoring and 
oversight while helping ensure intercountry adoption remains as 
affordable as possible for American families?
    Answer. The Department is sensitive to any increase in fees paid by 
prospective adoptive parents and expects efforts focused on monitoring 
and oversight will provide greater stability and financial protection 
to families. Such efforts include reviews of Adoption Service Provider 
(ASP) financial solvency, monitoring their use of fees, and enforcement 
of the requirement that ASPs refund fees for services not rendered. 
This ensures that, after having paid substantial fees to an ASP, 
prospective parents and prospective adoptees are not left stranded in 
the middle of an adoption by an ASP that goes out of business.
    Question. In April, the Senate Judiciary Committee hosted a hearing 
on International Parental Child Abduction, and the U.S. Senate passed a 
resolution recognizing April 2018 as International Parental Child 
Abduction Month to bring awareness to the harm caused by this issue. 
Will you please provide an update on the Department of State's efforts 
to help prevent International Parental Child Abduction and actions the 
Department has taken to assist families experiencing this issue?
    Answer. The Office of Children's Issues Prevention Team works hard 
to prevent International Parental Child Abduction (IPCA) and protect 
children from its harmful effects. Through our Children's Passport 
Issuance Alert Program (CPIAP), concerned parents or custodians can 
work with the State Department to ensure that parental consent 
requirements are met when a passport application is received for an 
enrolled child. The Department also coordinates with CBP and other 
Federal agencies on CBP's Prevent Abduction Program, which aims to 
prevent a child's removal from the United States in violation of court-
ordered travel restrictions. Since the April hearing, CBP has taken 
steps to provide more robust information about the Prevent Abduction 
program on its website, and the Department's Prevention website now 
links to this information. Going forward, we will continue to work 
across the U.S. Government to identify additional ways to prevent IPCA 
from occurring in the first place and assist families when it does 
happen.
                                 ______
                                 
            Questions Submitted by Senator Patrick J. Leahy
    Question. Egypt's President el Sisi has labeled anyone affiliated 
with the Muslim Brotherhood a terrorist and has locked them up for 
years without trial, he has cracked down on civil society, and he has 
pursued a strategy in the Sinai that has made the situation worse. 
Arbitrary arrests, torture, and indefinite detention are common in 
Egypt. When there are trials, they make a mockery of international 
standards of fairness. We have repeatedly raised these concerns with 
Egyptian officials, to no avail. The administration has withheld a 
portion of the $1.3 billion in military aid, and I support that 
decision. After years of discussions, we have finally seen progress on 
the cases involving the arrests of employees of U.S. NGOs. Have you 
discussed these other concerns with President el Sisi, and if so what 
was his response?
    Answer. Though I have yet to meet personally with President al-Sisi 
in my role as Secretary of State, the administration has worked to 
advance our strategic partnership while emphasizing respect for and 
protection of basic rights and freedoms. We remain concerned by Egypt's 
repression of nonviolent opposition, the limited space for civil 
society, and restrictions on the peaceful expression of dissent. The 
Department of State has raised and will continue to raise our serious 
concerns about these issues with senior Egyptian Government officials 
and has stressed the fundamental importance of the respect for human 
rights and a robust civil society for Egyptian stability and 
prosperity.
    Question. How is the decision to drastically reduce the number of 
refugees we admit into this country a reflection of our values? What 
values were you referring to?
    Answer. The President authorized the admission of up to 45,000 
refugees in fiscal year 2018. Over the last year and a half, U.S. 
Government agencies have worked to strengthen the U.S. Refugee 
Admissions Program's security measures. While necessary to improve 
national security and public safety, these reviews and enhancements 
have lengthened processing times for some cases thus initially slowing 
the rate of admissions. In addition, the United States is focusing 
resources on the domestic asylum backlog, which is over 300,000 cases 
and growing. Nevertheless, the United States continues to prioritize 
the resettlement of the world's most vulnerable refugees. We work 
closely with the U.N. High Commissioner for Refugees and other partners 
to identify the refugees at greatest risk and in most need of 
resettlement in a third country.
    Question. Like it or not, and regardless of what the White House 
may think causes it, the Earth's climate is changing. However, the 
President walked away from the Paris Agreement. During your 
confirmation hearing you testified that you would ``make sure that the 
United States demonstrates leadership on climate issues 
internationally.'' How do you plan to do that? b. Has the 
administration proposed an alternative to the Paris Agreement, and if 
so what does it consist of and what funds are being devoted to it?
    Answer. As I noted at my confirmation hearing, I will make sure 
that the United States demonstrates leadership on climate change issues 
internationally to protect and advance the interests of the United 
States, including by promoting innovation and market-friendly solutions 
that help reduce greenhouse gas emissions and enhance resilience. I 
will make sure that we do so in a manner that is fair to the United 
States and that does not burden the U.S. economy. I will also ensure 
that the United States is actively engaged in multilateral bodies, as 
well as directly through our diplomatic and development activities with 
other countries. As the President has stated, the United States intends 
to withdraw from the Paris Agreement unless we can identify terms for 
reengagement that are more favorable to the American people. The United 
States is continuing to participate in international climate change 
negotiations--including those related to implementation guidance for 
the Paris Agreement--to protect U.S. interests and ensure all future 
policy options remain open to the President. I look forward to working 
with the President and with foreign counterparts on a way forward on 
this issue that is consistent with U.S. interests and available 
resources.
    Question. Do you support helping countries adapt to, or mitigate 
the effects of, climate change--like rising sea levels, warming 
temperatures, water shortages, the dependence on fossil fuels? If so, 
how much is in the fiscal year 2019 budget request for that support?
    Answer. I support helping countries promote access to affordable, 
sustainable energy that also promotes a clean and healthy environment 
through continued bilateral engagement and cooperation, including by 
promoting innovation and market-friendly solutions that help reduce 
greenhouse gas emissions and enhance resilience.
    While the United States will continue to engage internationally on 
climate change issues to protect U.S. energy security and economic 
interests and to achieve a level playing field, the fiscal year 2019 
budget proposes to wind down existing State Department and USAID 
bilateral programs intended primarily to help other countries mitigate 
the impacts of climate change. The budget continues support for 
developing countries' efforts to improve affordable and reliable energy 
access, agricultural and economic resilience, and natural resource use 
and management, where mutually beneficial to our broader foreign 
policy, economic development, and national security objectives.
    Question. This Friday, the International Organization for 
Migration, comprised of 169 member governments, is scheduled to elect 
its new director general. Bill Swing, the outgoing director general, is 
a good friend and one of our most experienced and respected diplomats. 
The Trump administration has nominated Ken Isaacs, who has a long 
record of anti-Muslim statements. He has repeatedly posted statements 
online reflecting the view that Islam is a religion that is inherently 
violent and inextricably linked to terrorism. For example, in a June 
2017 tweet, he commented on a CNN International report quoting the 
bishop of Southwark Cathedral in London after terrorists killed eight 
people in that city. According to CNN, the bishop stated that the 
attack and the killings were ``not what the Muslim faith asks people to 
do.'' Isaacs responded, ``Bishop, if you read the Quran you will know 
`this' is exactly what the Muslim faith instructs the faithful to do.'' 
In Twitter replies to expressions of sorrow about the 2016 Orlando 
nightclub terrorist attack, he simply tweeted the hashtag #Islam. This 
may be in line with comments President Trump has made about Muslims, 
but if Mr. Isaacs were saying these things about Christians, Jews, or 
other religions I seriously doubt that he would have been nominated for 
this position. Do you support his candidacy?
    Answer. As I shared in a letter with every International 
Organization for Migration (IOM) member state in early June, I believe 
Ken Isaacs had the vision and experience to advance IOM's mission to 
serve people with human dignity and member states as they work to 
strengthen safe, orderly, and legal migration systems. Mr. Isaacs has 
over 34 years of proven leadership and operational experience serving 
the world's most vulnerable people no matter their race or religion. 
Mr. Isaacs demonstrated an ability to collaborate effectively with 
governments and leaders around the world to address some of the world's 
pressing challenges in migration.
    Question. A few weeks ago, Saudi authorities accused seven recently 
imprisoned women's activists and others associated with the women's 
rights movement of serious crimes. Pro-government newspapers and social 
media called the activists ``traitors.'' At least four other women's 
rights defenders have been arrested since May 15, bringing the total 
number of detainees to at least 11. When the Crown Prince was here, the 
State Department announced a $1 billion arms sale to Saudi Arabia. Have 
you urged the Crown Prince to release these women's rights activists, 
and if so what was his response?
    Answer. The Department has maintained a complex, multi-faceted 
relationship with Saudi Arabia as a key regional partner in advancing 
and protecting the interests of the United States in the Middle East. 
We follow very closely the detention of these activists, many of whom 
have campaigned for the reforms the Saudi Government is now initiating. 
Human rights are part of the Department's conversations with the 
Saudis, and the arrests of activists are raised at all levels. We 
continue to raise concerns on limitations to freedom of expression, 
association, and assembly and continue to urge Saudi Arabia to protect 
fair trial guarantees and transparency and to emphasize the importance 
of allowing space for civil society.
    Question. President Trump has repeatedly said that he was presented 
with a proposal to spend $1 billion for the U.S. Embassy in Jerusalem, 
which he rejected, and by doing so he saved the taxpayers more than 
$999 million because it will only cost $200,000 or $300,000. The 
administration has already notified the Committee that it intends to 
spend $55 million over the next few years and has requested hundreds of 
millions more for a new Embassy in Jerusalem, while it finalizes plans 
for its location and construction. Knowing how much an Embassy like 
that, with all the security requirements, is likely to cost, was the 
President being straight with the taxpayers? Would it be more honest to 
say that the new Embassy is going to cost a lot more than $200,000? In 
fact a lot more than $200 million?
    Answer. The President's statement was clear that the $250,000 was 
for an interim Embassy facility, which was inaugurated on May 14. The 
next phase of the construction is an expansion of the interim facility, 
estimated at $55 million. The final stage will be a permanent facility. 
At this time, the Department is exploring all options and locations for 
a final facility and the requirements therein. Without the location and 
requirements, it is premature to estimate a cost.
    Question. U.S. Ambassador David Friedman has said: ``I don't 
believe the settlements are illegal.'' Do you agree with him? What is 
this administration's position on Israeli settlements in the West Bank?
    Answer. The administration has stated that while the existence of 
settlements is not in itself an impediment to peace, further 
unrestrained settlement activity does not help advance peace. The 
Israeli Government has made clear that, going forward, its intent is to 
adopt a policy regarding settlement activity that takes the President's 
concerns into consideration. We welcome this. We remain committed to 
facilitating an enduring and comprehensive peace between Israel and the 
Palestinians. We remain hard at work on a peace plan that will benefit 
both parties. That plan will be unveiled when the time is right.
    Question. In earlier testimony, you said that other countries need 
to devote greater resources toward common objectives, and you have said 
that our funding should be proportional. Yet you have also said, when 
questioned about funding cuts, that it is not about dollars, it is 
about ``outcomes''. So, which is it? We agree that dollars are not the 
only measure of success, but there are costs associated with buying 
vaccines, supporting foreign police forces, protecting our diplomats, 
and investing in development overseas, and those costs are increasing. 
How do you measure proportionality when it involves protecting U.S. 
interests overseas?
    Answer. The fiscal year 2019 budget request for the State 
Department and USAID of $39.3 billion supports the administration's 
priorities and goals as set forth in the National Security Strategy and 
the State Department/USAID Joint Strategic Plan. We are working hard to 
achieve these goals and desired foreign policy outcomes. At the same 
time, other donor countries must do more to contribute their fair share 
toward meeting global challenges and our shared goals. The United 
States can no longer bear the majority of this burden.
    Question. On Syria, it seems that the administration's strategy has 
been whittled down to defeating ISIS and getting out. Is there more to 
it than that, and what is the status of the review of aid to help 
stabilize Syria that has held up $200 million and left our partners in 
the country wondering if they can count on us?
    Answer. Our priorities in Syria are defeating ISIS and other 
terrorist groups, ensuring the end of chemical weapons use in Syria, 
protecting Syria's neighbors, diminishing Iran's influence, de-
escalating the Syrian conflict, and lessening civilian suffering 
resulting from the humanitarian crisis to create the necessary space 
for a political settlement to the conflict. In line with the 
President's request to review all bilateral foreign assistance for 
Syria, we continually reevaluate stabilization assistance levels and 
how best they might be used. The United States continues to work with 
the international community, members of the Global Coalition to Defeat 
ISIS, and our partners on the ground to provide stabilization support.
    Question. There was talk when Rex Tillerson had your job of moving 
part of the Bureau of Population, Refugees, and Migration to USAID. 
Others suggested that part of it should be moved to the Department of 
Homeland Security. Both proposals concerned a lot of people, including 
on this Committee. Can we assume that is not going to happen--that the 
personnel, functions, and budget of PRM will stay where they are?
    Answer. The Bureau of Population, Refugees, and Migration, which 
manages U.S. refugee policy, assistance, and resettlement, is an 
integral part of State's foreign policy efforts to prevent and respond 
to crises and conflict and promote regional stability. As part of 
Executive Order 13781, the administration is in the process of 
reviewing agencies throughout the executive branch in pursuit of 
increased efficiency, effectiveness, and accountability. In response to 
Executive Order 13781, the Department of State is working with USAID to 
optimize our overall humanitarian assistance efforts.
    Question. During your confirmation, when asked if you believe that 
a woman who is pregnant as a result of rape should have the right to 
obtain a safe abortion, you said you ``will support the 
administration's efforts to combat gender-based violence and support 
the maternal health and family planning needs of women around the 
world.'' Since that did not answer the question, let me be more 
specific: we know that rape is often used as a weapon of war. If a girl 
is raped by a member of ISIS, or the Taliban, or the Burmese army, 
would the administration's policy force her to give birth, or would it 
support her right to a safe abortion in a country where abortion is 
legal--as it is in this country?
    Answer. The Protecting Life in Global Health Assistance (PLGHA) 
policy aims to ensure that U.S. taxpayer funding does not support 
foreign non-governmental organizations that provide or actively promote 
abortion as a method of family planning. The policy does not apply with 
respect to cases of rape, incest, or endangerment of the life of the 
mother.
    Question. Every year, the Department of Defense gets more into the 
business of foreign aid. Officials at DoD say that since the State 
Department does not have enough money, DoD needs to do it: police 
training, counternarcotics, building schools, you name it. The results 
have often fallen short, as the Inspectors General and GAO have 
documented, because this is not what DoD does best. Secretary Mattis 
has called for a bigger budget for diplomacy and development. How do 
you reconcile this, when the President wants to cut the budget for 
diplomacy and development by more 23 percent?
    Answer. Development and diplomacy play an indispensable role in 
securing peace and security, promoting prosperity, expanding American 
influence, and addressing global crises. The State Department and 
USAID's efforts in these areas contribute to a more secure and 
prosperous world by helping to enhance the stability and resilience of 
our partners around the world, which in turn promotes their economic 
development.
    The State Department and USAID's fiscal year 2019 budget request is 
designed with the goal of maximizing the efficiency of our foreign 
assistance operations consistent with furthering U.S. national 
interests. By focusing our efforts, we will be able to quickly and 
effectively target and address the most pressing challenges and threats 
to our national security. The State Department will continue to 
coordinate with the Department of Defense, including through the 
Security Sector Assistance Steering Committee, and provide direction 
through legislation calling for State Department concurrence in the use 
of the Department of Defense's assistance authorities to ensure an 
integrated and comprehensive approach in all U.S. foreign assistance 
and in order to best leverage resources and authorities to advance 
national security priorities and partnerships.
    Question. United States support for Central America is episodic. It 
ebbs and flows. Usually it ebbs. The Alliance for Prosperity is the 
latest initiative. Over the past 3 years we have provided more than $2 
billion, and we are starting year four. We know these countries are 
struggling with complex and very difficult problems that will take many 
years to solve. But despite the positive rhetoric by officials in these 
countries we do not see the necessary commitment to combat corruption, 
end impunity, and stop the attacks against civil society and the 
manipulation of the judiciary and the electoral process by those in 
power. In other words, what we see for the most part is more of the 
same. How do you see the current situation, and if things continue the 
way they are what results should we expect in 3 to 5 years?
    Answer. Our diplomatic engagement, close partnership with Central 
America, and the political will of government leaders in the region 
allow us to advance our security, governance, and economic prosperity 
objectives. Overcoming the challenges in the region will take years of 
sustained effort, though we are beginning to see progress in the 
professional capability of institutions, reduced homicide rates, and 
improved coordinated approaches in communities from which we see out-
bound migration. Over the next three to 5 years, our programming will 
support broader, long-term efforts to increase transparency, stimulate 
economic growth, reduce and prevent violence, and combat trafficking 
and its destabilizing impacts on the region.
                                 ______
                                 
               Questions Submitted by Senator Marco Rubio
    Question. Is a secure, stable, and improving Central America in our 
national interests? Do you support robust foreign assistance funding 
for Central America, both now and over the long-term, to help reduce in 
the region the various incentives for northward migration?
    Answer. The security and prosperity of Central America is a key to 
regional stability and to the security of the United States. U.S. 
assistance under our Strategy for Central America aims to secure U.S. 
borders and protect American citizens by addressing the economic, 
security, and governance drivers of illegal immigration and illicit 
trafficking through Central America to the United States. Funding 
supports short-, mid-, and long-term efforts to address systemic 
challenges in Central America. Short-term efforts seek to address 
immediate security challenges. Long-term programming seeks to 
discourage illegal migration by addressing the need for improved rule 
of law and economic growth in Central America, coupled with sustainable 
security and border security enhancement. Addressing these challenges 
requires robust diplomatic engagement and funding from the United 
States, sustained progress from the Central American governments, and 
continued support by international partners and institutions, civil 
society, and the private sector.
    Question. What is the State Department currently doing to help 
Central American nations to secure and stabilize their situation?
    Answer. Our engagement in all Central American countries aims to 
dismantle transnational criminal organizations, combat drug 
trafficking, halt illegal immigration, and promote sustainable economic 
growth by improving security, combatting impunity, and increasing 
economic opportunity. The Department is providing more than $2.6 
billion in foreign assistance to Central America in fiscal years 2015-
2018. Overcoming the challenges in Central America will take years of 
sustained assistance and diplomatic effort, but we are seeing progress.
    Question. How would you judge the effectiveness of the U.S. 
Strategy for Central America? What metrics is the State Department 
using for the U.S. Strategy for Central America?
    Answer. I am committed to ensuring that the U.S. taxpayer sees the 
results of our international aid. The Department measures and evaluates 
performance of all foreign assistance programs it oversees, employing a 
comprehensive, interagency results architecture for all seven Central 
American countries and all three pillars of the U.S. Strategy for 
Central America. USAID and other interagency partners actively 
participate in collecting the data required for evaluation, measuring 
progress in security, prosperity, and governance programs. Our 
evaluation includes strategic objectives for each pillar of the 
Strategy as well as common baseline indicators and targets against 
which we measure progress over time.
    In accordance with requirements accompanying the fiscal year 2018 
appropriation for Central America, the Department submitted a progress 
report based on this plan for monitoring and evaluation on May 16. It 
is available on USAID and Department public websites. This initial 
report shows that, in general, we are meeting our programmatic targets, 
but that after only one fiscal year of tracking the results data, we 
have yet to see significant, national-level success across all seven 
countries.
    Question. What does success look like?
    Answer. The goals of the U.S. Strategy for Central America are to 
reduce insecurity and violence, enhance economic opportunity, and fight 
impunity and corruption in Central America to address the drivers of 
illegal immigration and disrupt transnational criminal organizations. 
In the short-term, we are scaling up programs that have an immediate 
impact on conditions driving illegal immigration to the United States, 
as well as efforts to build the capacity of Central American 
governments. In the medium-term, we will support programs designed for 
broader impact to increase transparency, stimulate economic growth, 
reduce and prevent violence, and combat trafficking.
    Question. What is the administration doing to promote democracy and 
human rights in Nicaragua? Does the administration need more resources 
or legislative action to prevent Nicaragua from sliding deeper into 
tyranny, like Cuba and Venezuela?
    Answer. Congress directed $10 million of fiscal year 2018 and $9.5 
million of fiscal year 2017 Development Assistance funds to Nicaragua 
for democracy and governance programs. Since the onset of Nicaraguan 
government-instigated violence and repression in April, USAID and 
Department programs have focused on responding to needs on the ground, 
such as ongoing support for human rights and democracy activists as 
well as independent journalists. I look forward to working with 
Congress to continue providing assistance that supports U.S. goals and 
interests in Nicaragua consistent with any applicable restrictions. We 
are also actively revoking visas of those who are committing the human 
rights abuses, pursuing additional sanctions, and will take additional 
steps as warranted by events on the ground.
    Question. Do you believe the current negotiations will lead to 
early elections?
    Answer. The Nicaraguan government-instigated attacks and threats 
against peaceful protestors and the general population are unacceptable 
and must cease. An end to violence is foremost among the conditions 
necessary to resume good faith negotiations for a democratic and 
peaceful path forward for all Nicaraguans. I support the Nicaraguan 
Catholic Bishops' Conference commitment to advance the National 
Dialogue, which includes a proposal for early elections, to further 
negotiations to resolve the ongoing crisis. I encourage all parties to 
work together to resolve the current crisis in a way that respects 
human rights and the rule of law and provides for early, free, and fair 
elections.
    Question. Are Chinese telecoms like ZTE and Huawei--including the 
role that they and other Chinese state-directed telecommunications 
companies play in advancing China's espionage and intellectual property 
theft--a national security issue? Does the operation of Chinese state-
directed telecommunications firms in the United States constitute a 
direct threat to our national security?
    Answer. Although state ownership or control does not, standing 
alone, necessarily pose a threat to U.S. national security and law 
enforcement interests, some foreign-government controlled companies' 
activities may pose unacceptable risks to U.S. national security and 
law enforcement. The State Department--along with interagency 
partners--is working to strengthen the U.S. telecommunication 
infrastructure to ensure that it is secure and that our intellectual 
property is protected. There is an interagency process to advise the 
Federal Communications Commission (FCC) on foreign companies' requests 
to access the U.S. telecommunications market. For example, the State 
Department participated in the interagency process that recommended to 
the FCC on July 2 to deny a China Mobile license application to provide 
international voice traffic between the United States and foreign 
countries as a common carrier due to substantial and unacceptable 
national security and law enforcement risks. We will continue to work 
with Congress and interagency partners to safeguard our 
telecommunications infrastructure.
    Question. Does the State Department or USAID use any 
telecommunications equipment from Huawei or ZTE, including `white-
labeled' equipment that was produced by Chinese telecoms but has a 
different company's name on it?
    Answer. Huawei and ZTE devices are not authorized for use in the 
State Department's mobile program.
    Question. How many U.S Government employees in China has the State 
Department confirmed as suffering symptoms consistent with the so-
called ``Havana Syndrome'' attacks suffered by U.S. Government 
employees in Cuba? How many non-U.S. Government employees, if any, have 
suffered such symptoms in China?
    Answer. To date, there is one U.S. Government employee stationed in 
China who has been medically confirmed to have symptoms consistent with 
those seen in patients from Embassy Havana. The Department is not aware 
of any medically confirmed non-U.S. Government employee cases.
    Question. How is the State Department investigating the incident(s) 
in China? Is what's happening in China connected in any way to the 
attacks in Cuba?
    Answer. On May 23, I asked Deputy Secretary Sullivan to establish 
and lead an interagency task force to look into these incidents. Deputy 
Secretary Sullivan continues to lead the task force, which focuses on 
identifying and treating affected personnel and family members, 
investigating the incidents, and messaging, including diplomatic 
outreach. While the medically confirmed symptoms of our patient in 
Guangzhou are medically similar to those experienced by our staff in 
Havana, we do not know the cause of the symptoms in Havana or China. We 
are continuing to investigate in both places.
    Question. How does the Chinese Government's response compare to the 
Cuban Government's response? Please be as specific as possible.
    Answer. At this point, the magnitude, scope, consistency, and time 
period of incidents reported in China and Cuba are different. The 
Chinese Government has repeatedly assured senior Department officials 
in Washington and in Beijing that they are investigating the 
circumstances surrounding the one medically confirmed case and taking 
appropriate measures to protect our personnel and their family members.
    Question. After the State Department recently informed Congress 
about the 26th injured U.S. Government employee from U.S. Embassy 
Havana, what is the status of the Embassy? And what is the Cuban 
Government telling you about the most recent attack?
    Answer. Embassy Havana remains on unaccompanied status. The Cuban 
Government continues to state that it will abide by its 
responsibilities under the Vienna Convention to take adequate steps to 
protect our personnel. The Cuban Government informs us that it 
continues its investigation; however, to date it has not yielded any 
substantive results.
    Question. As the United States seeks full snapback of suspending 
sanctions against Iran, do you support efforts to persuade the Society 
for Worldwide Interbank Financial Telecommunication (SWIFT) once again 
to disconnect the Central Bank of Iran (CBI) and other designated 
Iranian banks from SWIFT's financial messaging services?
    Answer. Yes. The re-imposition of sanctions on Iran has one primary 
goal: to place maximum economic pressure on the Iranian regime to 
encourage them to return to the negotiating table. Eliminating Iran's 
access to the international financial system will not only increase 
this economic pressure but also deprive the regime of funds used to 
support its malign activities throughout the region. We intend to work 
with our allies and partners to end Iran's use of SWIFT and any other 
specialized financial messaging systems in an effort to isolate Iran 
economically.
    Question. How are you emphasizing to foreign governments our 
Nation's expectation that all governments should comply with sanctions 
against Iran, including secondary sanctions on the Central Bank of 
Iran, the significant oil reduction requirement, and de-SWIFTing CBI 
and other designated Iranian banks?
    Answer. The Department of State is working diligently to counter 
the totality of Iran's malign activity. We have an aggressive 
diplomatic engagement strategy in support of our Iran policy, and we 
are pursuing a campaign of maximum economic pressure on Iran. Our teams 
of diplomats and specialists are meeting with partners around the globe 
to discuss specific concerns with the plan for re-imposition of U.S. 
nuclear-related sanctions and next steps in Iran policy. Teams have 
already traveled to multiple stops in Europe and Asia to garner support 
for our global effort to pressure Iran and to explain our sanctions 
policy. We are fully engaged at all levels, and our diplomatic outreach 
will expand in the coming weeks.
    Question. Have you pressed the Saudi Government to allow greater 
reforms on human rights, including the release of political prisoners 
who are wrongly detained in Saudi Arabia, and the reversal of practices 
aimed at stifling dissent and criticism? If not, would you be willing 
to do so?
    Answer. The Department of State continues to engage with Saudi 
Arabian Government officials at all levels on human rights in the 
Kingdom. We continue to emphasize the importance of allowing space for 
civil society and free expression. We are following very closely the 
detention of civil society actors. Human rights issues are part of the 
Department of State's conversation with the Saudi Government, and the 
arrests are raised in these discussions. I will continue to raise this 
issue on a regular basis.
    Question. Have you, in specific, raised with the Saudi Government 
the case of jailed activist and blogger Raif Badawi? If not, would you 
be willing to do so?
    Answer. The Department of State has frequently engaged with the 
Saudi Arabian Government on the case of the detained activist and 
blogger Raif Badawi. We continue to call on Saudi authorities to review 
Mr. Badawi's case and his sentence. The Department of State regularly 
raises concerns about restrictions on the rights to freedom of 
expression and peaceful assembly, fair trial guarantees, and other 
human rights issues with Saudi authorities at all levels. I will 
continue to urge the Saudi Arabian Government to ensure transparency in 
the investigation and trial process and to allow space for civil 
society.
                                 ______
                                 
             Question Submitted by Senator Cindy Hyde-Smith
    Question. The fiscal year 2018 Omnibus provided $5,000,000 for 
programs to promote accountability in Iraq and Syria for genocide, 
crimes against humanity, and war crimes. Can you give an update on the 
spend plan for this account?
    Answer. The Department is in the process of finalizing funding 
allocations, which will include the $5 million to promote 
accountability in Iraq and Syria for genocide, crimes against humanity, 
and war crimes. Once funding allocations have been finalized, these 
funds will be approved and pre-obligation requirements--such as 
Congressional notifications--met before the funds are implemented for 
the purposes directed.
                                 ______
                                 
             Questions Submitted by Senator Jeanne Shaheen
    Question. Secretary Pompeo, I was very glad when you announced that 
you would lift the freeze on hiring and promotions at the State 
Department that was instituted by your predecessor. And yet, we 
continue to hear from within the Department that the freeze has not 
been fully lifted, while at the same time political appointees are 
reportedly vetting career Foreign Service and civil service employees 
based on their perceived political leanings. Can you clarify for the 
Committee as to whether or not you have lifted the personnel freeze 
that was previously in place, as well as whether you intend to fill the 
openings left by this misguided personnel policy?
    Answer. I lifted the hiring freeze on Foreign Service and Civil 
Service employment on May 15. This ended the 8 percent workforce 
reduction plan previously in place and authorized hiring to December 
31, 2017 staffing levels as provided by Congress in the Consolidated 
Appropriations Act of 2018--Statement of Managers.
    The Department's current hiring plans, once fully executed, will 
provide for growth in both the Foreign and Civil Service workforces 
beyond that which existed on December 31, 2017. The congressionally-
directed hiring for the Foreign Service allows the Department to hire 
at ``pre-fiscal year 2017 levels,'' and we have already planned entry 
classes for the remainder of the year to reach these targets. Bureaus 
have been authorized Civil Service employment ceilings based on the 
same hiring logic as the Foreign Service. In total, our plan brings us 
454 employees above the December 31, 2017 level.
    Committee staff have been and will continue to be briefed by 
Department officials on the detailed plans that the Department has 
developed to meet the Congressional goals.
    Question. This Committee has advanced legislation that would 
require you to hire personnel to fill the ranks of the State Department 
to 2016 levels. Do you disagree with that personnel target?
    Answer. At my direction, the Department has developed, and is in 
the process of executing, Foreign and Civil Service hiring plans that 
are based on the Congressional guidance and funding levels in the 
Consolidated Appropriation, 2018. For the Foreign Service, intake 
classes have been structured to coincide with ``the pre-fiscal year 
2017 rate'' as included in the Appropriation's Statement of Managers. 
Similarly, Civil Service hiring targets have been established for each 
Bureau based on similar targets as specified in the Act for the Foreign 
Service. Committee staff have been briefed by the Department on the 
detailed plans to meet the Congressional intent of the Act.
    Question. What is your response to allegations, which seem to have 
been substantiated by leaked emails sent by political appointees at the 
State Department, that career State Department employees are being 
vetted based on their perceived political leanings?
    Answer. The Department has referred allegations of political 
reprisal against its career employees to the Department's Office of the 
Inspector General and the U.S. Office of Special Counsel. The 
Department is fully cooperating with those investigations and will take 
the appropriate action following the conclusions of those 
investigations.
    Question. Secretary Pompeo, as you know well, the State Department 
is withholding $200 million in stabilization funding for areas of Syria 
previously controlled by ISIS. This funding is for stabilization 
projects, which includes clearing mines and other explosives, removing 
rubble, repairing basic infrastructure and doing other things necessary 
to allow for the return of Syrian civilians displaced by fighting. I am 
struggling to see the logic in withholding this money after the U.S. 
has invested so much time and effort into pushing ISIS out of Syrian 
cities and towns. Why do you think it is prudent to withhold this 
funding at this time?
    Answer. The President has asked that all bilateral foreign 
assistance for Syria stabilization efforts be reviewed in order to 
determine appropriate assistance needs and then encourage our partners 
in the Global Coalition to Defeat ISIS to share the burden of 
consolidating the Coalition's military gains and preventing the 
resurgence of ISIS. The Department of State and USAID continue to work 
with the international community, members of the Global Coalition to 
Defeat ISIS, and our partners on the ground to provide much-needed 
stabilization support to communities liberated from ISIS in Syria.
    Question. Up to now, the administration has said that it is opposed 
to any actions that might further exacerbate the humanitarian 
catastrophe that is Yemen. Realistically, can we really expect the 
Saudi-coalition to undertake a massive urban assault to take Hodeidah 
without killing civilians and damaging critical infrastructure?
    Answer. The administration is monitoring the situation in Hudaydah 
closely. We continue to stress to our foreign partners the need to 
avoid any action that damages infrastructure, exacerbates Yemen's 
humanitarian crisis, or disrupts the flow of humanitarian assistance 
and commercial goods through Hudaydah port. I have spoken to Emirati 
leaders and made clear this administration's desire to address their 
security concerns while preserving the free flow of humanitarian aid 
and commercial goods to reach the Yemeni people who desperately need 
it. The administration continues to stress that all parties must 
prioritize the U.N. Special Envoy's efforts to revive political 
negotiations.
                                 ______
                                 
          Questions Submitted by Senator Christopher A. Coons
    Question. How is the administration's decision to freeze funding 
for the U.N. Relief and Works Agency (UNRWA) and Economic Support Funds 
to the West Bank and Gaza supporting American interests and values in 
the Middle East?
    Answer. The administration routinely conducts reviews of foreign 
assistance in order to ensure it is meeting our national security 
interests, achieving our policy objectives, and providing value to U.S. 
taxpayers. The Department of State will brief Congress on the 
conclusions of the review once decisions are made. We have long voiced 
the need for the United Nations Relief and Works Agency (UNRWA) to seek 
out new voluntary funding streams and increase burden-sharing among its 
donors. We have also consistently called on UNRWA to undertake more 
fundamental reforms that will put it on more sustainable financial 
footing. It is essential that we create a fairer, more equitable, and 
more predictable funding mechanism for UNRWA.
    Question. While UNRWA is not without faults, how does the 
administration intend to support programs aimed at Palestinians facing 
humanitarian crises and other legitimate needs?
    Answer. U.S. assistance to the Palestinians, including the United 
Nations Relief and Works Agency for Palestine Refugees in the Near East 
(UNRWA), remains under review; no decision has yet been reached. On 
March 13, the White House hosted a conference on Gaza with 
representatives from 20 countries, including Israel and many Arab 
states. Participants discussed a series of concrete proposals and 
projects that would address the urgent challenges faced by Palestinians 
in Gaza, including chronic shortages of electricity and water. The 
United States will continue to work with our partners to find ways to 
improve the lives of the people of Gaza.
    Question. Do government leaders in Jordan and Lebanon support this 
decision to freeze UNRWA funding?
    Answer. Government leaders in Jordan and Lebanon have publicly 
expressed the need for the international community to continue funding 
the United Nations Relief and Works Agency for Palestine Refugees in 
the Near East (UNRWA). The administration is in regular consultation 
with our regional partners, including Jordan and Lebanon, and will 
continue to seek their views as we review our assistance to UNRWA and 
the Palestinians. The Department of State will brief Congress on the 
conclusions of the review, once decisions are reached.
    Question. When does the administration plan to release this 
funding?
    Answer. U.S. assistance to the Palestinians, including the United 
Nations Relief and Works Agency for Palestine Refugees in the Near East 
(UNRWA), remains under review; no decision has yet been reached. The 
administration routinely conducts reviews of foreign assistance in 
order to ensure it is meeting our national security interests, 
achieving our policy objectives, and providing value to U.S. taxpayers. 
The Department of State will brief Congress on the conclusions of the 
review, once decisions are reached.
    Question. Will you commit to keeping this committee up to date on 
administration decisions regarding funding for humanitarian programs, 
people-to-people programing, and other programs permitted under U.S. 
law before the end of the fiscal year?
    Answer. The Department of State will brief Congress on the 
conclusions of the review once decisions are reached.
    Question. Does the United States plan to revive the former 
resettlement agreement between UNHCR and the Government of Israel to 
resettle 16,000 Eritrean and Sudanese refugees currently in Israel?
    Answer. According to a public statement by Prime Minister Netanyahu 
on April 3, the Government of Israel cancelled a bilateral agreement 
with the U.N. High Commissioner for Refugees (UNHCR) that had 
established a Framework for Cooperation between Israel and UNHCR to 
promote durable solutions for approximately 39,000 Eritreans and 
Sudanese migrants currently living in Israel. We are not aware of any 
current agreement between UNHCR and the Israeli government related to 
African migrants in Israel.
    Question. If so, what is the administration's position on whether 
or not the United States will support Israel by resettling some of the 
refugees?
    Answer. The United States resettled 175 refugees via Israel in 
fiscal year 2017, primarily Eritreans. The fiscal year 2018 
Presidential Determination on refugee resettlement set a ceiling on 
admission of 45,000 refugees. In fiscal year 2018, the United States 
has resettled 89 individuals coming from Israel as of July 3. We 
continue to accept referrals from UNHCR and anticipate doing so in the 
future.
                                 ______
                                 
            Questions Submitted by Senator Chris Van Hollen
    Question. Do you believe a political appointee who reassigns, 
categorizes or otherwise vets civil servants, based on perceived 
political affiliation, should work at the State Department?
    Answer. Career Civil Service and Foreign Service employees are 
protected under law from being treated differently due to their real or 
perceived political affiliation. The Department is committed to 
adhering to the merit systems principles in its recruitment and 
employment practices. Such prohibited personnel actions are not 
tolerated at the State Department.
    Question. Will you remove political appointees from the State 
Department found to have reassigned, categorized or vetted civil 
servants based on perceived political affiliation?
    Answer. The Department has referred allegations of political 
reprisal against its career employees to the Department's Office of the 
Inspector General and the U.S. Office of Special Counsel. The 
Department is fully cooperating with those investigations and will take 
the appropriate action following the conclusions of those 
investigations.
    Question. Please provide an explanation of the decisions to 
reassign Sahar Nowrouzzadeh, Lawrence Bartlett, and Ian Moss.
    Answer. In general, the Department does not comment on personnel 
matters involving individual employees. With regard to Mr. Bartlett, we 
shared information about his current assignment in a letter dated June 
22, 2018.
    Question. Please provide all documents and communications regarding 
proposed or actual personnel actions for Sahar Nowrouzzadeh, Lawrence 
Bartlett, and Ian Moss.
    Answer. In general, the Department does not comment on personnel 
matters involving individual employees.
    Question. Does the Chinese Government exercise significant control 
over its telecommunications firms, and do Zhongxing Telecommunication 
Equipment Corporation (ZTE) and Huawei both have longstanding ties to 
the Chinese Government?
    Answer. Media and other reporting suggests that the Chinese 
Government has ties to Chinese telecommunications firms, including the 
firms you have noted.
    Question. You recently said that China is, ``the most predatory 
economic government that operates against the rest of the world 
today.'' Has the Chinese Government substantially reduced intellectual 
property theft or other predatory Chinese behavior in the past year?
    Answer. At the direction of the President, the Department is 
working with interagency partners to rebalance the U.S.-China trade 
relationship and achieve more fair and reciprocal trade between our two 
countries. This effort includes protecting U.S. technology and 
intellectual property from China's discriminatory and burdensome trade 
practices. Under Section 301 of the Trade Act of 1974, the United 
States will take responsive actions. These include pursuing WTO dispute 
settlement to address discriminatory intellectual property licensing 
processes adopted by China and imposing tariffs on goods imported from 
China containing industrially significant technology, including those 
related to the ``Made in China 2025'' program. U.S. stakeholders 
continue to express concerns to us regarding China's intellectual 
property practices and unfair economic policies. The appropriate 
response from China should be to change its behavior, which China has 
pledged to do many times but has not done to date.
    Question. This January, in your capacity as CIA director, you said 
you had ``every expectation'' that Russia would interfere in future US 
elections, and that you had not ``seen a significant decrease in their 
activity.'' In testimony before the House Foreign Affairs Committee in 
May, you said that the administration ``will not tolerate'' Russian 
interference in U.S. elections,'' but also that the United States has 
not been able to achieve ``effective deterrence'' against the Russians 
and has ``more work to do.'' Do you maintain that Russia will interfere 
in future U.S. elections, including midterms in November?
    Answer. The evidence clearly shows Russia sought to interfere in 
our 2016 elections. Their objective was to erode faith in U.S. 
democratic institutions, sow doubt about the integrity of our electoral 
process, and undermine confidence in the institutions of the U.S. 
Government. There will be serious consequences should Russia attempt to 
interfere in our electoral processes again.
    The Department of State works closely with other departments and 
agencies to protect our Nation against potential interference in our 
election processes. We warn the Russian Government when its behavior is 
unacceptable, work with our interagency partners to impose costs in 
response, and build international coalitions to actively deter malign 
Russian activities and share best practices. While the Department's 
mandate is to lead on foreign policy, we also support the efforts of 
the Departments of Homeland Security and Justice and, as appropriate, 
State and local officials to secure our elections, leveraging all 
necessary and available Department resources to counter Russian 
attempts to interfere.
    Question. Has the administration developed punitive actions, 
including sanctions that would go into effect immediately if Russia 
interfered in a future election?
    Answer. The Department of State has made clear to the Russian 
Government at the highest levels that any efforts to interfere in the 
2018 midterm elections will not be tolerated and will be met with 
significant consequences. We are working on a whole-of-government basis 
to not only safeguard our electoral systems and processes, but also to 
prepare responses should Russia attempt to interfere again. The 
Department will use appropriate diplomatic, economic, and political 
tools to respond should there be evidence of interference.
    Question. If Russia interferes in the upcoming midterms, what 
actions will you recommend to the President as the appropriate 
response?
    Answer. The Department of State has made clear to the Russian 
Government at the highest levels that any efforts to interfere in the 
2018 midterm elections will not be tolerated and will be met with 
severe consequences. We are working on a whole-of-government basis to 
not only safeguard our electoral systems and processes, but also to 
prepare responses should Russia attempt to interfere. I will recommend 
the President consider the full suite of diplomatic, economic, and 
political tools to respond should there be evidence of interference.
    Question. How are Turkey and Russia coordinating operations in 
northern Syria, and how are U.S. arrangements with Turkey in northern 
Syria impacting Turkish-Russian cooperation?
    Answer. On June 4, Secretary Pompeo and Turkish Foreign Minister 
Cavusoglu considered the recommendations of the Turkey-U.S. Working 
Group on Syria pertaining to the future of our bilateral cooperation in 
Syria on issues of mutual interest, to include taking steps to ensure 
the security and stability in Manbij. They endorsed a Road Map to this 
end and underlined their mutual commitment to its implementation, 
reflecting agreement to closely follow developments on the ground. This 
agreement represents a way forward to maintain stability, sustain 
Defeat ISIS gains, and facilitate ongoing Global Coalition to Defeat 
ISIS operations in northern Syria.
    Turkey continues to engage Russia and other actors in Syria through 
diplomatic and military channels and continues to update us on these 
discussions. Turkey shares our goals of a unified, stable Syria, and 
supports the United Nations-led Geneva process. Turkey also permits 
Coalition aircraft to use Turkish bases and hosts over 3 million Syrian 
refugees. We are clear with Turkey about our concerns regarding Russian 
actions and influence in the region.
    Question. What is the future of the U.S. relationship with the 
Syrian Kurdish forces that have supported U.S. operations against the 
Islamic State? Will the U.S. phase out support for Syrian Kurdish 
forces?
    Answer. The United States is committed to the defeat of ISIS in 
Syria and to ensuring that it cannot return to liberated areas. Since 
2015, the U.S.-led Global Coalition to Defeat ISIS has worked with the 
Syrian Democratic Forces to defeat ISIS. This cooperation has 
facilitated the liberation of more than 3.2 million people and over 95 
percent of the terrain that ISIS held at its height in Syria in the 
summer of 2014. The Syrian Democratic Forces is a multi-ethnic and 
multi-sectarian alliance comprising Syrian Kurds, Arabs, and Turkmen of 
various faiths united in their desire and motivation to rid Syria of 
ISIS.
    While ISIS has lost nearly all the territory it once controlled, 
ISIS retains a small presence in eastern Syria. We will continue our 
partnership with the Syrian Democratic Forces to complete the military 
defeat of ISIS, stabilize liberated territory, set the conditions 
conducive to voluntary returns of displaced Syrians, and ensure ISIS 
does not return as an insurgency. We will also work to ensure that all 
the people of northeast Syria have an appropriate say in defining the 
future of Syria pursuant to the political process set forth in the U.N. 
Security Council Resolution 2254.
    Question. What role will the Syrian Kurds play in governing the 
areas of northern Syria where they have significant representation? How 
will the United States facilitate that governance role?
    Answer. The United States will continue to support the inclusion of 
all Syrians in the political process set forth in U.N. Security Council 
Resolution 2254. This includes Syrian Kurds. State and USAID 
stabilization assistance in northern Syria includes support for the 
development of local governance entities that are representative, 
civilian-led, transparent, and legitimate in the eyes of the 
communities they serve.
    Question. Does the administration plan to restart foreign 
assistance to USAID projects in the West Bank and Gaza?
    Answer. No decision has yet been reached on U.S. assistance to the 
Palestinians, which is under review.
    Question. Have you established the conditions under which foreign 
assistance would be resumed? What are those conditions? Who is in 
charge of the policy process and when will it be completed?
    Answer. No decision has yet been reached on U.S. assistance to the 
Palestinians, which is under review. The administration routinely 
conducts reviews of our foreign assistance in order to ensure it is 
meeting our national security interests, achieving our policy 
objectives, and providing value to U.S taxpayers. The Department of 
State will brief Congress on the conclusions of the review, once 
decisions are reached.
    Question. For over a year, the State Department has not had a 
Special Envoy for the Human Rights of LGBTI persons. Will you appoint a 
Special Envoy for the Human Rights of LGBTI persons, and, if so, when?
    Answer. Consistent with the administration's prior commitment, I 
intend to retain the position of Special Envoy for the Human Rights of 
LGBTI Persons. The Department is working to fill the position.

                         CONCLUSION OF HEARINGS

    Well done, Mr. Secretary. Thank you for your time and your 
patience and your candid answers.
    The subcommittee stands in recess subject to the call of 
the Chair.
    [Whereupon, at 3:58 p.m., Wednesday, June 27, the hearings 
were concluded, and the subcommittee was recessed, to reconvene 
subject to the call of the Chair.]
</pre></body></html>
